<html>
<title> - ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR FISCAL YEAR 2019</title>
<body><pre>[Senate Hearing 115-]
[From the U.S. Government Publishing Office]


 
    ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR FISCAL YEAR 2019

                              ----------                              


                       WEDNESDAY, APRIL 18, 2018

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 2:36 p.m., in room SD-430, Dirksen 
Senate Office Building, Hon. Lamar Alexander (chairman) 
presiding.
    Present: Senators Alexander, Shelby, Murkowski, Graham, 
Hoeven, Kennedy, Lankford, Feinstein, Tester, Udall, Shaheen, 
and Merkley.

                      DEPARTMENT OF DEFENSE--CIVIL

                         Department of the Army

                       Corps of Engineers--Civil

STATEMENT OF HON. R.D. JAMES, ASSISTANT SECRETARY OF 
            THE ARMY (CIVIL WORKS)


              opening statement of senator lamar alexander


    Senator Alexander. The subcommittee on Energy and Water 
Development will please come to order.
    We welcome the new Chairman of the Senate Appropriations 
Committee. Senator Richard Shelby is here. We are delighted to 
have him here.
    We want him to know that Senator Feinstein and I, and the 
rest of the members of this committee, work together. We have 
traditionally come to an agreement early on important issues 
that most Senators are very interested in. We like being at the 
head of the line when it comes to allocation and when it comes 
to moving to the floor.
    Our hope is that we can present the full committee with a 
bill that you can take up early, and give to Senator McConnell, 
and we can follow your interest in the regular order, Mr. 
Chairman.
    If you have any remarks that you would like to make before 
Senator Feinstein and I do, you are welcome to make them.
    Senator Shelby. I will wait my turn. Thank you.
    Senator Alexander. Thank you, Mr. Chairman.
    Today's hearing will review the President's fiscal year 
2019 budget request for the Army Corps of Engineers, and the 
Bureau of Reclamation, which is part of the Department of the 
Interior.
    This is our subcommittee's second budget hearing. Our third 
and final hearing will be next Wednesday to review the Nuclear 
Regulatory Commission's fiscal year 2019 budget request.
    Senator Feinstein and I will each have an opening 
statement. I will then recognize Chairman Shelby, and any other 
Senator who is here, for up to 5 minutes for an opening 
statement, alternating between the minority and the majority 
and the order in which they arrived.
    We will then turn to our witnesses to present their 
testimony on behalf of the Corps and the Bureau of Reclamation. 
Each witness will have 5 minutes to offer your testimony. Then 
we will recognize Senators for 5 minutes of questions each, 
alternating between the majority and minority in the order in 
which they arrived.
    I want to thank our witnesses for being here today, and 
also Senator Feinstein. I have expressed regularly my 
appreciation for her steady, constructive, and experienced work 
on the variety of issues we deal with.
    Our witnesses today include R.D. James, Assistant Secretary 
of the Army for Civil Works; Lieutenant General Todd Semonite, 
Chief of Engineers for the U.S. Army Corps of Engineers; Brenda 
Burman, Commissioner for the Bureau of Reclamation at the 
Department of Interior; and Timothy R. Petty, Ph.D., Assistant 
Secretary for Water and Science at the Department of Interior.
    Today, I will focus my questions on four main areas. One, 
making our Nation's water infrastructure a priority; two, 
properly funding our inland waterways system; three, adequately 
funding our Nation's ports and harbors; and four, using a more 
commonsense approach to making decisions about which projects 
receive funding by looking at the, ``remaining benefit to cost 
ratio'' of an ongoing project.
    Today, because of the Office of Management and Budget 
rules, the Corps has to pretend a project is not already under 
construction when the Corps decides which projects will receive 
funding each year. This does not make any sense, and makes it 
harder to complete projects on time and on budget.
    Now, on making water infrastructure a priority, this is 
something that Senator Feinstein and I have worked hard on. 
Based on the number of appropriations requests we receive each 
year, the Corps of Engineers must be the Federal Government's 
most popular agency.
    I can recall after the Missouri and Mississippi Rivers 
flooded in 2011, I was on the Senate Environment and Public 
Works Committee, and the room filled up with United States 
Senators who wanted some extra money to deal with flood 
disasters, both the cleanup afterwards and the prevention of 
the next flood.
    My memory is there must have been 15 or 20 Senators there, 
Senator Shelby, of both parties talking about the importance. 
So there is a real interest in what the Corps does.
    The Corps touches the lives of almost every American and 
maintains our inland waterways, it deepens and keeps our ports 
open, looks after many of our recreational waters and lands, 
manages the river levels to prevent flooding, and its dams 
provide emission-free, renewable hydroelectric energy.
    In my opinion, we should spend more, not less, on our 
Nation's water infrastructure. So in 2012, Senator Graham and I 
gathered our staffs, including Senator Feinstein's, and we 
said, ``Let us just rear back and ask, `What would a great 
country, the United States, want from its ports, from its 
locks, its dams, and from its waterways in order to fully 
maximize them for our economic growth?' ''
    We asked the staff to paint a picture of where we would 
like to go, and not worry about how we would pay for it. We had 
a lot of discussions among this group of Senators and the White 
House.
    We talked to the Appropriations committee chairman, Senator 
Inouye. We talked with the Environment and Public Works 
committee, and other interested Senators. From these 
discussions, Congress took three important steps focused on 
properly funding our inland waterways system.
    First, we passed a law that reduced the amount of money 
that comes from the Inland Waterways Trust Fund to replace 
Olmsted Lock, a project in Illinois and Kentucky that was 
soaking up almost all of the money that is available for inland 
waterway projects.
    Second, we worked with the commercial waterway industry to 
establish a priority list for projects that needed to be 
funded, on which Chickamauga Lock ranks near the top, in fourth 
place.
    And third, we enacted a user fee increase that commercial 
barge owners asked to pay in order to provide additional funds 
to replace locks and dams across the country.
    These steps increased the amount of funding that was 
available for inland waterways projects from about $85 million 
in fiscal year 2014 to $104 million in fiscal year 2019. And 
Congress has followed through by appropriating all of the user 
fees that have been collected in the last 4 years.
    The user fees that are paid into the Inland Waterways Trust 
Fund by waterway users are matched with Federal dollars, which 
allow the Corps of Engineers to make significant progress to 
address the backlog of work on our inland waterways.
    But despite knowing the Inland Waterways Trust Fund would 
have $104 million available for fiscal year 2019, the year 
coming up, the Administration's budget is only proposing to 
spend $5 million, the lowest level of proposed spending from 
the Inland Waterways Trust Fund in at least the last 20 years, 
leaving 97 percent of these funds sitting unspent in a Treasury 
account.
    Now, here is what this means. It means we would be 
collecting taxes from commercial barges to go through the locks 
in order to improve the locks, and then we would be keeping the 
money, putting it in the bank, and not spending it for the 
purpose that we took it.
    And despite not spending the entire $104 million in user 
fees from commercial barges, the Administration's budget also 
includes a new user fee for inland waterways that would raise 
another $1.7 billion over a 10 year window.
    Now, what sense does that make?
    We need to spend the money that we are already collecting, 
that is a good idea, before we ask the waterways industry to 
pay more. It makes no sense to ask barge owners to pay more 
fees when the Administration is not even proposing to spend all 
the fees we are collecting today.
    The budget request also only proposes to fund a single 
project, Olmsted Lock, and eliminates funding for the other 
three projects that are already under construction and received 
funding last year: Lower Monongahela, Kentucky Lock, and 
Chickamauga Lock.
    Replacing Chickamauga Lock is important to all of 
Tennessee. If Chickamauga Lock closes, it will throw 150,000 
more trucks onto I-75. Construction has been going on for the 
past 4 years thanks to the new plan and the steady funding that 
has been coming from this committee. So it does not make sense 
for the Administration to not include the project in the budget 
request.
    I have worked with General Semonite over the last 2 years. 
I deeply appreciate that funding for construction on 
Chickamauga Lock has been included in previous work plans. And 
as General Semonite and I have discussed, starting and stopping 
is not an efficient way to build inland waterway projects. This 
year's budget proposal is a huge step backwards for our 
Nation's inland waterways.
    Now, our ports and harbors; this is an area that has great 
interest to our Chairman, Senator Shelby, and our Vice 
Chairman, Senator Feinstein, as well as to me.
    Despite receiving a record level of funding in a regular 
appropriations bill of $6.8 billion in fiscal year 2018, the 
budget request this year fails to adequately fund our Nation's 
harbors, such as Mobile Harbor in Alabama, Savannah Harbor in 
Georgia, Long Beach Harbor in California, and many others 
across the country.
    Five years ago, Congress took a look, as I said, at the 
need to provide more funding for ports and waterways. We 
realized that the Government was spending only a fraction of 
the taxes each year that are collected in the Harbor 
Maintenance Trust Fund for our ports and harbors, resulting in 
billions of dollars of unspent funds just sitting there. That 
fund got bigger and bigger each year.
    In fact, unlike the Inland Waterways Trust Fund, which has 
virtually zero balance in the trust fund, the Harbor 
Maintenance Trust Fund has an unspent balance of over $9 
billion today.
    To provide more funding for our ports and harbors, Congress 
enacted spending targets for the Harbor Maintenance Trust Fund 
in the Water Resources Reform and Development Act of 2014 that 
were meant to make us spend a little more each year on harbor 
maintenance projects. We have set these targets and we have met 
those targets for the last 4 years in the Energy and Water 
appropriations bill.
    The target for fiscal year 2019 is $1.442 billion. However, 
the Administration's budget only proposes to spend $965 
million, $435 million less than what Congress appropriated last 
year and $477 million than the target that Congress 
established.
    So I will ask the witnesses how they plan to sufficiently 
fund our ports and harbors without requesting adequate 
resources to do it.
    I would also like to recognize Brenda Burman, Commissioner 
from the Bureau of Reclamation and Dr. Timothy Petty, Assistant 
Secretary for Water and Science at the Department of Interior.
    The Bureau of Reclamation delivers water to one of every 
five farmers in the west, irrigating more than 10 million acres 
of some of the most productive agricultural land in the 
country.
    Reclamation does not manage water resources in Tennessee, 
but I know of its deep importance to Senator Feinstein and 
other Senators of this subcommittee, and we look forward to 
hearing your testimony.
    [The statement follows:]
             Prepared Statement of Senator Lamar Alexander
    I want to thank our witnesses for being here today, and also 
Senator Feinstein.
    Our witnesses today include: R.D. James, Assistant Secretary of the 
Army for Civil Works; Lieutenant General Todd Semonite, Chief of 
Engineers for the U.S. Army Corps of Engineers; Brenda Burman, 
Commissioner for the Bureau of Reclamation at the Department of the 
Interior; and Timothy R. Petty, Ph.D., Assistant Secretary for Water 
and Science at the Department of the Interior.
    Today I will focus my questions on four main areas: making our 
Nation's water infrastructure a priority; properly funding our inland 
waterways system; adequately funding our Nation's ports and harbors; 
and using a more common-sense approach to making decisions about which 
projects receive funding by looking at the ``remaining benefit to cost 
ratio'' of an ongoing project. Today, because of Office of Management 
and Budget rules, the Corps has to pretend a project is not already 
under construction when the Corps decides which projects will receive 
funding each year. This does not make any sense, and makes it harder to 
complete projects on time and on budget.
    Based on the number of appropriations requests we receive each 
year, the Corps of Engineers is the Federal Government's most popular 
agency.
    I can recall when, after the Missouri and Mississippi rivers 
flooded in 2011, eight senators showed up at a Senate Environment and 
Public Works Committee hearing to ask what went wrong and what went 
right with disaster relief efforts. So, there's a real interest in what 
the Corps does.
    The U.S. Army Corps of Engineers touches the lives of almost every 
American. The Corps maintains our inland waterways, it deepens and 
keeps our ports open, looks after many of our recreational waters and 
land, manages the river levels to prevent flooding, and its dams 
provide emission-free, renewable hydroelectric energy.
    In my opinion, we should spend more, not less, on our Nation's 
water infrastructure.
    So, In 2012, Senator Graham and I gathered our staffs, including 
Senator Feinstein's, and we said, ``Let's just rear back and ask what 
would a great country, the United States, want from its ports, locks, 
dams, and waterways in order to fully maximize them for our economic 
growth.''
    We asked the staff to paint a picture of where we'd like to go, and 
not worry about how we would pay for it. We had a lot of discussions 
among this group of senators and the White House. We talked to the 
Appropriations committee chairman, Senator Inuoye. We talked with the 
Environment and Public Works Committee, and other interested Senators. 
From these discussions, Congress took three important steps, focusing 
on properly funding our inland waterways system.
    First, Congress passed a law that reduced the amount of money that 
comes from the Inland Waterways Trust Fund to replace Olmsted Lock, a 
project in Illinois and Kentucky that was soaking up almost all of the 
money that is available for inland waterway projects.
    Second, we worked with the commercial waterways industry to 
establish a priority list for projects that needed to be funded, on 
which Chickamauga ranks near the top, in fourth place.
    And third, we enacted a user fee increase that commercial barge 
owners asked to pay in order to provide additional funds to replace 
locks and dams across the country, including Chickamauga Lock.
    These steps increased the amount of funding that was available for 
inland waterways projects from about $85 million in fiscal year 2014 to 
$104 million in fiscal year 2019. And Congress has followed through by 
appropriating all of the user fees that have been collected in the last 
4 years.
    The user fees that are paid into the Inland Waterways Trust Fund by 
waterway users are matched with Federal dollars, which allow the Corps 
of Engineers to make significant progress to address the backlog of 
work on our inland waterways.
    But despite knowing the Inland Waterways Trust Fund would have $104 
million available for fiscal year 2019, the Administration's budget is 
only proposing to spend $5 million--the lowest level of proposed 
spending from the Inland Waterways Trust Fund in at least the last 20 
years--and leaving 97 percent of these funds sitting unspent in a 
Treasury account.
    That means, in effect, we would be collecting taxes from commercial 
barges to go through the locks in order to improve the locks, and then 
we would be keeping the money, putting it in the bank, and not spending 
it for the intended purpose.
    And despite not spending the entire $104 million in user fees from 
commercial barges, the administration's budget also includes a new user 
fee for inland waterways that would raise another $1.7 billion over a 
10-year window.
    I do not think this is a responsible approach. We need to spend the 
money that is already being collected before we ask the waterways 
industry to pay more. It makes no sense to ask barge owners to pay more 
in fees when the administration is not even proposing to spend all the 
fees we are collecting today.
    The budget request also only proposes to fund a single project, 
Olmsted Lock, and eliminates funding for the other three projects that 
are already under construction and received funding last year--Lower 
Monongahela, Kentucky Lock, and Chickamauga Lock.
    Replacing Chickamauga Lock is important to all of Tennessee and if 
Chickamauga Lock closes, it will throw 150,000 more trucks onto I-75. 
Construction has been ongoing for the past 4 years so it does not make 
sense for the administration to not include the project in the budget 
request.
    I've worked with General Semonite over the last 2 years and I 
deeply appreciate that funding for construction on Chickamauga Lock has 
been included in previous work plans. And as General Semonite and I 
have discussed, starting and stopping is not an efficient way to build 
projects.
    This year's budget proposal is a huge step backwards for our 
Nation's inland waterways.
    Despite receiving a record level of funding in a regular 
appropriations bill of $6.8 billion in fiscal year 2018, the budget 
request this year fails to adequately fund our Nation's harbors, such 
as Mobile Harbor in Alabama; Savannah Harbor in Georgia; and Long Beach 
Harbor in California, and many others across the country.
    Five years ago, Congress took a look at the need to provide more 
funding for our Nation's ports and harbors to ensure we can compete 
with other harbors around the world.
    We realized that the government was spending only a fraction of the 
taxes each year that were collected in the Harbor Maintenance Trust 
Fund for our ports and harbors, resulting in billions of dollars of 
unspent funds just sitting in a bank account that got bigger and bigger 
each year.
    In fact, unlike the Inland Waterways Trust Fund--which has 
virtually no balance in the trust fund--the Harbor Maintenance Trust 
Fund has an unspent balance of over $9 billion today.
    To provide more funding for our ports and harbors, Congress enacted 
spending targets for the Harbor Maintenance Trust Fund in the Water 
Resources Reform and Development Act of 2014, that were meant to make 
us spend a little more each year on harbor maintenance projects.
    We have met these targets for the last 4 years in the Energy and 
Water appropriations bill.
    The target for fiscal year 2019 is about $1.442 billion. However, 
the administration's budget only proposes to spend $965 million, $435 
million less than what Congress appropriated last year and $477million 
below the WRRDA target.
    So I will ask the witnesses how they plan to sufficiently fund our 
ports and harbors without requesting adequate resources to do it.
    I'd also like to recognize Brenda Burman, Commissioner from the 
Bureau of Reclamation and Dr. Timothy Petty, Assistant Secretary for 
Water and Science at the Department of the Interior.
    The Bureau of Reclamation delivers water to one of every five 
farmers in the West, irrigating more than 10 million acres of some of 
the most productive agricultural land in the country.
    Although Reclamation doesn't manage water resources in Tennessee, I 
know of its deep importance to Senator Feinstein and other Senators on 
this subcommittee, and we look forward to hearing your testimony.
    With that, I'll turn to Senator Feinstein for her opening 
statement.

    Senator Alexander. With that, I will turn to Senator 
Feinstein for her opening statement, and then to Senator Shelby 
and to other Senators.

                 STATEMENT OF SENATOR DIANNE FEINSTEIN

    Senator Feinstein. Thanks very much, Mr. Chairman.
    Chairman Shelby, thank you very much for attending this 
hearing and members on both sides, the same.
    The Army Corps and the Bureau of Reclamation handles some 
of the most important issues facing our Nation today. What I 
want you to know is how critical you are to California, both 
the Army Corps and the Department of Reclamation, for a State, 
now, of over 40 million people. We are bigger than 21 States 
and the District of Columbia put together.
    We have water. We have rivers. One thing we do not have is 
enough drinking water, and ports that are old, and a number of 
other problems.
    But I would like to begin by addressing the Army Corps' 
budget proposal. Compared to the recent fiscal year 2018 
omnibus that we just passed, the Administration's budget 
request represents a $2 billion or 30 percent cut. That is 
devastating.
    Moreover, despite the Administration's emphasis on 
rebuilding our Nation's infrastructure, this year's budget 
request is actually 4 percent less than what the Administration 
requested last year.
    We cannot construct new Army Corps infrastructure projects 
if we do not fund new studies. The Army Corps of Engineers is 
effectively California's main infrastructure project.
    For construction, the budget requests just $910 million, 
the lowest level of construction funding requested since 2001, 
believe it or not. This represents a $1.2 billion or 56 percent 
cut, Mr. Chairman, from the fiscal year 2018 omnibus. So we are 
taking a 56 percent cut from the omnibus just passed.
    This committee is constantly told that we should not start 
new projects until we finish ongoing ones. Yet, you also cut 
funding for ongoing projects. By delaying funds or providing 
insufficient funds to an ongoing construction project, the 
total cost of that project is going to go up. I do not see that 
that is an efficient way to fund the Corps and can actually 
lead to waste of taxpayer dollars.
    So Mr. James, I would appreciate your thoughts on how the 
Corps can sustain the investments we have made in fiscal year 
2018 at a time when the needs are so great throughout the 
country.
    I would like, for a moment, to turn to the Bureau. I want 
Ms. Burman to know that one of the outstanding relationships 
that I have had with the Department has been with the Bureau of 
Reclamation. So much in California depends on the work you do 
and the cooperation between this branch and the executive 
branch. I hope that cooperation will continue. It is really 
important.
    Given the operation of the Central Valley Project and water 
delivery throughout the State, the two big projects, 
Reclamation's request for water and related resources is $441 
million, or 33 percent less than what we just appropriated in 
the omnibus. Nearly half of this cut can be attributed to the 
Administration not requesting the $196 million we included in 
the omnibus for implementation of the drought-related 
provisions of the 2016 WIIN Act.
    This is a big problem for me, and it is symptomatic of how 
I will look at this budget. I know I am just one vote, but I 
worked for 3 years to get the water bill passed. We negotiated 
that bill with Leader McCarthy. That is how we got it passed.
    We hope to begin some new water infrastructure in 
California with desalinization, by funding the effort to get to 
that third membrane so that the energy coefficient is more 
positive than it is today, with Water$mart, with groundwater 
recharge, with a number of other programs. So that $400 million 
that came with that bill is really extraordinarily important to 
me and to the State.
    The recent omnibus included the first year of specifically 
recommended projects including three water recycling projects 
and seven water storage projects. I would really like to work 
with you, Ms. Burman, to see that this progress continues and 
we begin to see desal projects recommended, in time, for the 
fiscal year 2019 appropriations bill.
    I look forward to hearing an update on Reclamation's plans 
to stand up the desal program. I want to cooperate in every way 
I can and how you will identify future water storage, 
recycling, and desal projects that meet both the needs of the 
West and also have broad support from the impacted communities.
    For, I guess, the 19 States that are part of Reclamation, 
you really are extraordinarily important to our wellbeing. I 
want you to know that and offer my willingness to work with you 
to achieve a better future for all of us.
    Thank you, Mr. Chairman, and I look forward to the 
witnesses' testimony.
    Senator Alexander. Thank you, Senator Feinstein.
    We will now invite our members to make any opening 
statements they may wish before we go to the witnesses.
    We will begin with Chairman Richard Shelby.

                 STATEMENT OF SENATOR RICHARD C. SHELBY

    Senator Shelby. Mr. Chairman, I will try to be brief. First 
of all, I want to thank you, as Chairman of the committee, and 
Ranking Member Feinstein for bringing this hearing about. This 
is very, very important.
    The Energy and Water Development appropriation bill 
supports several important Federal agencies, as you pointed 
out, including our Nation's energy program, scientific 
research, water development projects, several national security 
interests.
    I am looking forward, as a member of the committee, to 
working with all of you on this subcommittee and drafting a 
bill that prioritizes spending in a responsible manner and 
meets our needs, which are many.
    I believe this hearing regarding our Nation's water 
infrastructures is of great importance to the country. The 
ability to navigate America's ports and inland waterways is 
critical to our commerce, to our continued economic growth, and 
we must prioritize, and we must fund these investments to 
remain competitive in the global workplace.
    My home State of Alabama has many important water structure 
needs, as most other States. The most important in my State, I 
believe, is the deepening and widening of the Port of Mobile. 
The Port of Mobile provides access to nearly 15,000 miles of 
inland waterways serving the Great Lakes, Ohio, upper 
Mississippi, and Tennessee Valley ports.
    It is currently the 10th largest port in the United States 
and has been identified as the fastest growing container 
terminal in North America. Simply put, the Port serves as an 
economic driver for the region, and of course, for my State of 
Alabama.
    The new Administration, this Administration, has made 
economic growth a top priority and a lot of us have worked with 
the President and the executive branch on this. The Corps, we 
all know, plays an important part in this process.
    I look forward to hearing from the panelists today. I know 
they are professionals in this, but we must meet our needs, as 
Senators Feinstein and Alexander pointed out. It is folly to do 
otherwise.
    Thank you, Mr. Chairman.
    Senator Alexander. Thank you, Chairman Shelby.
    Senator Tester, would you like to make a statement?

                    STATEMENT OF SENATOR JON TESTER

    Senator Tester. Yes, I will be very quick, though.
    Thank you, Chairman Alexander, Ranking Member Feinstein for 
holding this hearing.
    When the Chairman of the Federal Reserve left his position, 
I had a chance to visit with him and I asked him what was most 
important in this country. I was assuming he was going to talk 
about the debt, which is critically important.
    But what he said was this, if we do not leave a 21st 
century economy for our children, we are in big trouble. We 
will never be able to do anything.
    I am glad you are all here today because water 
infrastructure is critically important when it comes to our 
21st century economy.
    We have long lived off of previous generations' 
investments. And I know that as I ask you questions about how 
money is going to be spent and if there is enough in there, you 
do need to put it back on us to make sure that you have the 
resources to be able to do what we demand.
    I am going to tell you that as I look at some of our water 
infrastructure in our towns, and our cities, and our rural 
areas, it is worn out. If we do not make an investment, we are 
really not doing what somebody in the financial industry 
thought was most important. And that is leave a 21st century 
economy to our children that is based on, in my book, 
infrastructure, number one. Education is right alongside of it.
    Thank you all for being here. I look forward to your 
testimony.
    Senator Alexander. Thank you, Senator Tester.
    Senator Kennedy.

                   STATEMENT OF SENATOR JOHN KENNEDY

    Senator Kennedy. Thank you, Mr. Chairman.
    Mr. Secretary, General, Madam Commissioner, Mr. Secretary, 
I appreciate you being here. I am not sure I would have your 
jobs for love or money, but I am glad you do them.
    I do not think I have ever met a public official or a 
politician who was against jobs. We are all for jobs. It has 
been my experience that you cannot be for jobs if you are 
against business.
    It has also been my experience that businesswomen and 
businessmen need four things out of government. They need 
reasonable taxes, reasonable regulations, a skilled workforce, 
and decent infrastructure. Then government, frankly, needs to 
get out of the way.
    For most Americans, when you say ``infrastructure,'' they 
think of roads, and clearly, we need work there. They think of 
bridges. Maybe they think of airports. But in my State, they 
also think of water, water infrastructure.
    Five of the 12 largest ports in America are in Louisiana. 
Our commercial fishing industry is the largest in the 
continental United States. We need help. I am going to talk to 
you today about some specific projects.
    Dredging, which is always a problem. Flood control, we have 
talked about the Comite River to the Mississippi River 
diversion canal, which I will talk to you about a little bit 
later. Work on our ports.
    If anybody is wasting money in my State, I want to know 
about it. I want you to pick up the phone and call me. I will 
never ask you to spend taxpayer dollars if some of my people 
are wasting it, and I mean that.
    But at the same time we, like every other State, have some 
critical needs and they deal with maritime commerce. I 
appreciate the opportunity to visit with you about them today.
    Thank you for being here.
    Senator Alexander. Thank you, Senator Kennedy.
    Senator Shaheen.

                  STATEMENT OF SENATOR JEANNE SHAHEEN

    Senator Shaheen. Thank you, Mr. Chairman, and Ranking 
Member Feinstein for holding this hearing.
    Thank you all for being here to testify today.
    I share the views of my colleagues that we have to invest 
in infrastructure and that we need to do more to properly fund 
the needs that we have, with $96 billion worth of authorized 
projects currently backlogged on the Army Corps' list. We 
clearly have more to do.
    I certainly share the view of Senators Alexander and Shelby 
that we have to take a look at what we need with respect to our 
ports and harbors. We are not keeping up with the backlog. In a 
small State like New Hampshire, where we are very low on the 
list, it is a particular problem.
    So I look forward to a chance to ask you some questions 
about that today.
    Thank you.
    Senator Alexander. Thank you, Senator Shaheen.
    I will now recognize our witnesses. Secretary James, 
General Semonite, Commissioner Burman, Secretary Petty, why do 
you not just proceed in that order for about 5 minutes each, 
and then we will ask questions.
    Mr. James.

                  SUMMARY STATEMENT OF HON. R.D. JAMES

    Mr. James. Thank you, Mr. Chairman, and distinguished 
members of the subcommittee for the opportunity to discuss the 
President's budget for the Civil Works program of the Army 
Corps of Engineers for fiscal year 2019.
    This is my first opportunity as Assistant Secretary for 
Civil Works to appear before this subcommittee. I look forward 
to the opportunity to share my thoughts with you and emphasize 
my commitment to results, rather than processes, to ensure that 
the Corps is moving dirt and putting projects into the ground.
    I am honored to be joined by Lieutenant General Todd 
Semonite, our 54th Chief of Engineers.
    The fiscal year 2019 budget reflects the Administration's 
priorities and focuses on investments that will yield high 
economic and environmental returns, or address the significant 
risk to public safety.
    The budget provides $4.8 billion in gross discretionary 
funding for the Army Civil Works program. These investments 
will enable communities to reduce their flood risk, facilitate 
waterborne transportation, restore significant aquatic 
ecosystems, and generate low cost, renewable hydropower.
    The budget focuses on the highest performing work within 
the three main missions of the Corps, which is commercial 
navigation, flood control, and aquatic ecosystem restoration.
    The budget also focuses on maintaining the vast water 
resources infrastructure that the Corps owns and manages, and 
on finding innovative ways to rehabilitate it or hand it over 
to others.
    It gives priority to coastal harbors and inland waterways 
with the most commercial traffic, but also funds the 
maintenance of channels at small ports that support significant 
commercial fishing, subsistence or public transportation 
benefits. Similarly, the budget invests in safety improvements 
at Corps dams based on an assessment of risk.
    The Civil Works program relies on a foundation of strong 
relationships between the Corps and local communities. It 
enables us to work together to help meet their water resource 
needs.
    The Corps program uses a diverse set of tools and 
approaches to working with local communities, whether this 
means funding projects where they pay their share of the cost, 
or supply planning assistance and technical expertise to help 
them make better informed decisions to the local entities.
    The Flood Control and Coastal Storm Damage Reduction 
program is a collaborative effort that integrates and 
synchronizes flood control projects, programs, and authorities 
of the Corps to help reduce the risk of loss of life and 
property damage from riverine and coastal flooding. Also, it 
increases the resilience of local communities through 
structural and nonstructural measures.
    Funding for the Aquatic Ecosystem Restoration program will 
be used to restore several large ecosystems, including 
restoring aquatic habitat and ecosystems, where ecosystem 
structure and functional processes have been degraded in the 
past, and work needed to comply with biological opinions.
    The budget prioritizes funding to operate and maintain 
water resource infrastructure and the funding allocations for 
the maintenance of commercial navigation flood control, coastal 
storm damage reduction, and hydropower projects are informed by 
risk-based assessments.
    Funding for the construction program uses objective 
performance-based guidelines to fund the projects with the 
highest net economic, environmental, or public safety return to 
the Nation. For example, the budget funds the Olmstead Locks 
and Dams project to completion.
    The budget also funds the Dam Safety Program to enable the 
Corps to evaluate and implement effective risk reduction 
strategies at its dams where it is needed.
    The budget funds six feasibility studies to completion and 
includes funding for floodplain management services and for the 
Planning Assistance to States program to assist local 
communities with technical and planning assistance, and 
specifically to help them develop and implement nonstructural 
approaches that will enable them to reduce their flood risk.
    Lastly, the budget makes important investments to promote 
the sustainable management of lands around Corps facilities by 
providing funds to update the plans that govern how we manage 
those facilities and help combat invasive species.
    I thank you for inviting me here today. I look forward to 
your questions and interactions.
    Thank you.
    [The statement follows:]
                 Prepared Statement of Hon. R.D. James
    Thank you Chairman Alexander and distinguished members of the 
subcommittee for the opportunity to present the President's Budget for 
the Civil Works program of the Army Corps of Engineers for fiscal year 
2019. The Budget funds the development, management, restoration, and 
protection of the Nation's water, wetlands, and related resources, 
through studies, the construction, operation and maintenance of 
projects, the Corps' regulatory program, the cleanup of certain sites 
contaminated as a result of the Nation's early atomic weapons 
development, and emergency response preparedness.
    The fiscal year 2019 Army Civil Works Budget reflects the 
Administration's priorities. It provides $4.785 billion for this 
program, focusing on investments that will yield high economic and 
environmental returns or address a significant risk to public safety. 
These investments will enable communities to reduce their flood risk, 
facilitate waterborne transportation, restore significant aquatic 
ecosystems, and generate low-cost renewable hydropower. The Budget 
focuses on the highest performing work within the three main missions 
of the Corps: commercial navigation, flood and storm damage reduction, 
and aquatic ecosystem restoration.
    The Civil Works Program, which this Budget supports, relies on a 
foundation of strong relationships between the Corps and local 
communities, that enable us to work together to help meet their water 
resources needs. The Budget supports a Corps program that uses a 
diverse set of tools and approaches to working with local communities, 
whether this means funding projects where they pay a share of the 
costs, or providing planning assistance and technical expertise to help 
them make better informed decisions. The Budget funds Corps 
participation in national and international conversations on how to 
best address our water resources challenges and helps us maintain and 
improve our efforts on resiliency and sustainability--one of the 
challenges associated with the ways that we have used our water 
resources.
    The Budget also focuses on maintaining the vast water resources 
infrastructure that the Corps owns and manages, and on finding 
innovative ways to rehabilitate it or hand it over to others. These 
goals will be met, for example, by funding capital investment in the 
inland waterways, and by establishing--as proposed in the Budget--an 
annual fee to support this infrastructure investment and economic 
growth. This proposal will help finance the users' share of future 
capital investment, as well as 10 percent of the operation and 
maintenance cost, associated with these waterways. The Budget also 
proposes to divest the Washington Aqueduct, which is the wholesale 
water supply system for Washington, D.C.; Arlington County, Virginia; 
the City of Falls Church, Virginia; and parts of Fairfax County, 
Virginia.
    In addition, the Budget proposes needed revisions to the 
appropriations language for the Construction, Operation and 
Maintenance, and Mississippi River and Tributaries accounts and the 
Harbor Maintenance and Inland Waterways Trust Funds to enable greater 
transparency in how these funds are budgeted and spent.
    The Budget provides $4.8 billion in discretionary funding for the 
Civil Works program, including approximately $1.9 billion to support 
commercial navigation; $1.5 billion for flood and storm damage 
reduction; and $224 million for aquatic ecosystem restoration.
    The Budget allocates these funds based on performance. For example, 
it gives priority to coastal harbors and inland waterways with the most 
commercial traffic, but also funds the maintenance of channels at small 
ports that support significant commercial fishing, subsistence, or 
public transportation benefits. Similarly, the Budget invests in safety 
improvements at Corps dams based on an assessment of the risk, 
considering the consequences of the most likely failure modes.
    Under its navigation program, the Corps maintains approximately 
12,000 miles of inland waterways with 218 locks at 176 sites; 
approximately 300 deep-draft and 600 shallow-draft Great Lakes and 
coastal ports extending 13,000 miles and include 23 locks at 19 sites; 
and more than 900 coastal navigation structures.
    The flood and coastal storm damage reduction program is a 
collaborative effort that integrates and synchronizes the flood risk 
management projects, programs, and authorities of USACE with those of 
other Federal, State, regional and local agencies. It helps to reduce 
the risk of loss of life and property damage from riverine and coastal 
flooding, and increase the resilience of local communities through 
structural and non- structural measures.
    Funding for the aquatic ecosystem restoration program will be used 
to restore several large ecosystems. Activities include restoring 
aquatic habitat in ecosystems where ecosystem structure, function, and 
processes have been degraded; work needed to comply with biological 
opinions; and operation and maintenance of the Chicago Sanitary and 
Ship Canal fish barrier.
    The Budget prioritizes funding to operate and maintain water 
resources infrastructure. It provides $3.1 billion for the operation 
and maintenance program, consisting of approximately $2.1 billion in 
the Operation and Maintenance account, $933 million in the Harbor 
Maintenance Trust Fund account, and $135 million in the Mississippi 
River and Tributaries account. The funding allocations for the 
maintenance of commercial navigation, flood and storm damage reduction, 
and hydropower projects are informed by risk-based assessments that 
consider both project and project component conditions and the 
consequences in the event of a failure. For example, funding levels 
will enable continued reduction in the number of extended lock closures 
per year due to preventable mechanical breakdowns and a reduced risk of 
failure at our flood risk management projects.
    The Budget provides $965 million to be derived from the Harbor 
Maintenance Trust Fund to maintain coastal channels and related work--
the highest amount ever budgeted. The Budget also proposes to reduce 
the Harbor Maintenance Tax rate to better align estimated annual 
receipts with recent appropriations levels for eligible expenditures 
from the Harbor Maintenance Trust Fund.
    The Budget provides $1 billion for the construction program, 
consisting of $872 million in the Construction account, $109 million in 
the Mississippi River and Tributaries account, $33 million in the 
Harbor Maintenance Trust Fund account, and $5 million in the Inland 
Waterways Trust Fund account. The Budget uses objective, performance- 
based guidelines to fund the projects with the highest net economic, 
environmental, or public safety return to the Nation. For example, the 
Budget funds the Olmsted Locks and Dam project to completion.
    The Budget also includes $452 million for dam safety, consisting of 
$431 million for dam safety assurance, seepage control, and static 
instability correction actions and related work in the Construction 
account, $10 million for seven new dam safety modification studies in 
the Investigations account, and $11 million for interim risk reduction 
measures at Corps dams in the O&M account. When coupled with 
anticipated unobligated carryover balances, this funding will enable 
the Corps to evaluate and implement effective risk reduction strategies 
at our dams where needed.
    The Budget provides $82 million in the Investigations account and 
$600 thousand in the Mississippi River and Tributaries account for 
studies and related remaining items. The Budget funds six feasibility 
studies to completion and also includes $15 million for Floodplain 
Management Services and $5 million for the Planning Assistance to 
States program to assist local communities with technical and planning 
assistance, and specifically to help them develop and implement non-
structural approaches that will enable them to reduce their flood risk. 
All ongoing feasibility studies funded in the Budget have signed 
Feasibility Cost-Sharing Agreements, and have developed a plan that 
outlines their scope, schedule, and cost, which has been agreed upon by 
the District, Division, Corps Headquarters, and the local sponsor.
    The fiscal year 2019 regulatory program is funded at $200 million 
to protect the Nation's waters and wetlands and provide efficiency in 
permit processing.
    The Budget provides $33 million for the emergency management 
program, a robust level of funding to help ensure that our people are 
properly trained and equipped to help communities respond to all types 
of disasters.
    Lastly, the Budget also makes important investments to promote the 
sustainable management of the lands around Corps facilities, by 
providing funds to update the plans that govern how we manage our 
facilities and helping to combat invasive species.
    Thank you all for inviting me to attend today.
    General Semonite will provide further remarks on the Army Civil 
Works 2019 Budget.

    Senator Alexander. Thank you, Mr. James.
    General Semonite.
STATEMENT OF LIEUTENANT GENERAL TODD T. SEMONITE, 
            COMMANDING GENERAL AND CHIEF OF ENGINEERS, 
            ARMY CORPS OF ENGINEERS
    General Semonite. Chairman Alexander, Ranking Member 
Feinstein, and distinguished members of the subcommittee.
    Thank you for the opportunity to testify today.
    I am glad to be appearing here with Secretary James and 
look forward to his leadership on the Civil Works team as we 
work together to address water resource challenges across the 
Nation.
    I would also like to take a moment to welcome Major General 
Scott Spellmon, who is joining us today, as the newest member 
of the Corps Headquarters Leadership team. General Spellmon 
will be assuming the role as my Deputy Commanding General for 
Civil and Emergency Operations, filling in behind the recent 
departure of Major General Ed Jackson.
    Scott comes to us from the Northwest Division as he 
transitions from his most recent role as Commanding General, 
where he oversees a very challenging and dynamic annual program 
of over $3 billion in civil works, environmental restoration, 
and military construction in more than a dozen States, 
primarily within the Columbia and Missouri River basins.
    I have been in command of the Corps for close to 2 years. I 
want to briefly update you on where we are going.
    As I said last year, the Corps' credibility is measured by 
our ability to deliver results that are on time, on budget, and 
of exceptional quality.
    Since Congress first authorized our Navigation Mission in 
1824, the Corps has worked hard to develop and implement 
solutions to the Nation's water resource challenges. We are 
able to do this because we have a world class workforce of 
talented and dedicated professionals who are passionate about 
what we do. None of our work is done alone. It is with the full 
participation and hard work of many others.
    We appreciate, value, and depend upon the support of the 
Administration, the Congress, and all of our partners to 
succeed in this mission. I am very proud of the work that the 
Corps accomplished, but I am equally aware that the 
organization can and will improve. I have been, and remain, 
committed to instituting changes in the Corps' delivery process 
in order to become a more efficient and effective organization.
    The Corps faces a multitude of challenges, some old and 
some new. Much of our infrastructure is well beyond its design 
life, yet the requirements have never been greater. The demands 
on the Federal budget continue to grow and as our 
infrastructure ages, we find more and more of our actual 
appropriations going to operations and maintenance activities 
at the expense of both investigations and construction 
investments.
    Today, we do have over $96 billion in construction 
requirements representing the Federal share on a multitude of 
projects. We have close to 100 ongoing feasibility studies 
which, if authorized, will simply add to the Federal budget 
requirement.
    Our feasibility studies are formulated with the assumption 
of efficient funding and most all are multiple year projects. 
Yet, we budget on an annual basis with no assurances that 
adequate funding will be available from year to year. This 
creates uncertainty for our non-Federal sponsors, drives up 
project costs, and delays the realization of benefits.
    The Corps continues to work on policy and administrative 
changes that can improve infrastructure delivery. Over the last 
year, I have assembled my general officers, my SES's, and my 
senior leaders to look internally at our organization, our 
authorities, policies, regulations, and procedures in order to 
identify opportunities for increased efficiency and 
effectiveness. This includes developing over 74 initiatives, in 
my hand right here, and legislative proposals that we have 
developed on how the Corps can help deliver our program. I look 
forward to sharing those initiatives and those innovative 
changes with your staffs.
    The Corps is fully engaged in support of administrative 
efforts aimed at streamlining the regulatory process. The Corps 
is addressing topics such as implementing the one Federal 
decision that established discipline and accountability in the 
environmental review and permitting process for infrastructure 
projects.
    We are reviewing the nationwide permit program to identify 
modifications that will increase the efficiency of 
decisionmaking, and we continue to work with the EPA in 
reviewing the 2015 Waters of the United States rule. Our goal 
is to simplify the process for gaining infrastructure permits 
while protecting the environment in accordance with the law.
    We are working to delegate more decisions to the lowest 
appropriate level in encouraging our leadership to take more 
prudent risks. To put this concept into practice, we have 
implemented changes delegating Section 408 decisions at the 
lowest possible level, eliminating redundancies, identifying 
alternate processes and authorities, and clarifying when such 
permissions are not even required.
    We believe that risk informed professional judgment 
decisions should be made and documented without being subject 
to numerous time-consuming reviews.
    The Corps wants to be part of the solution, not part of the 
problem. We recognize the need to address internal policies, 
regulations, processes, and cultural impediments in order to 
remain relevant into the future. We want to be value added to 
deliver our solutions, whatever role that may have in the 
endeavor.
    We cannot conduct all these reforms in isolation. We need 
the help of OMB (Office of Management and Budget) and Congress 
to unleash the power of the Corps by acting on our numerous 
recommendations.
    Thank you, Mr. Chairman, and members of the subcommittee. 
This concludes my testimony and I look forward to answering any 
questions you might have.
    Thank you.
    [The statement follows:]
       Prepared Statement of Lieutenant General Todd T. Semonite
    Mr. Chairman and Members of the Subcommittee:
    I am honored to testify before your committee today, along with The 
Honorable R.D. James, the Assistant Secretary of the Army for Civil 
Works, on the President's Fiscal Year 2019 Budget for the United States 
Army Corps of Engineers (Corps) Civil Works Program.
    I have been in command of the Corps for close to 2 years, and I 
want to briefly update you on where we are going. As I said last year, 
the Corps' credibility is measured by our ability to deliver results 
that are on time, on budget, and of exceptional quality.
    The Corps continues to work on policy and administrative changes 
that can improve infrastructure delivery. More specifically, we are 
looking internally at our organization, authorities, policies, 
regulations and procedures in order to identify opportunities for 
increased efficiency and effectiveness. This will include efforts to 
reduce redundancy and delegate authority for decisionmaking to the most 
practical and appropriate level.
    For example, section 1007 of WRRDA 2014 requires the Secretary to 
establish a process for reviewing requests submitted under Section 14 
of the Rivers and Harbors Appropriation Act of 1899, as amended, in a 
timely and consistent manner. These requests (commonly referred to as 
Section 408 requests because the provision from the 1899 Act is 
codified at 33 USC 408) involve proposals for the permanent or 
temporary alteration by others of any completed Civil Works project. 
The Budget includes significant funding to support Section 408 reviews. 
Beginning in 2017, the majority of all Section 408 decisions can be 
rendered at the district level. Further efforts to eliminate 
duplication of public interest and environmental reviews and establish 
timelines for decisions are ongoing. The Corps has also clarified when 
Section 408 permission is required, or not required, and when the 
requirements of Section 408 may be met by another Corps process and/or 
authority, thus resulting in the elimination of redundancies.
    Similarly, the Corps continues to make significant progress in the 
Regulatory program. Section 1134 of the WIIN 2016 amended Section 2040 
of the Water Resources Development Act of 2007 and directed the Corps 
to research, develop, and implement an electronic system to allow for 
the electronic preparation and submission of applications for permits 
and requests for jurisdictional determinations. The Corps has accepted 
electronic submission of permit applications or jurisdictional 
determination requests via email for several years and the application 
form is a fillable PDF available on Corps District websites. The 
information received helps the Corps track the number and type of 
applications, as well as status and completion of reviews. The Corps 
will continue to explore additional automation advances to make the 
process more efficient for the public and cost effective for the 
government.
    The Corps focuses on work that provides the highest economic, 
environmental, and public safety returns to the Nation. The Corps also 
operates and maintains water resources infrastructure that may no 
longer meet its authorized purposes or for which the needs of the 
Nation have changed. As such, the Corps is conducting studies--there 
are currently seven ongoing studies--to ascertain the viability of 
deauthorizing projects and removing them from the Corps inventory.
    The Corps also continues our work across the globe with presence in 
more than 110 countries supporting national security and our Combatant 
Commanders with civil works, military missions, and water resources 
research and development expertise. We are proud to serve this great 
Nation and our fellow citizens and we are proud of the work the Corps 
does to support America's foreign policy. Corps civilian employees 
nationwide have volunteered--and continue to volunteer--to support our 
Nation's missions and vital interests abroad, often in harm's way. Many 
have served on multiple deployments.
                   summary of fiscal year 2019 budget
    The fiscal year 2019 Civil Works Budget is a performance-based 
budget, which will reduce flood risk in communities across the Nation, 
facilitate commercial navigation, restore aquatic ecosystems, and 
generate low-cost renewable hydropower. The Budget uses a targeted 
approach to investment in our water resources, which will benefit the 
Nation's economy, environment, and public safety--now and in the 
future.
    The Budget focuses on high-performing projects and programs within 
the three main water resources missions of the Corps: commercial 
navigation, flood and storm damage reduction, and aquatic ecosystem 
restoration. The Budget includes $4.785 billion in gross discretionary 
funding for Civil Works activities throughout the Nation.
    The Budget also proposes the necessary level of funding for the 
Regulatory program to protect and preserve water-related resources of 
the Nation.
                         investigations program
    The fiscal year 2019 Budget provides $82 million in the 
Investigations account, and $600,000 in the Mississippi River and 
Tributaries account to evaluate and design projects within the Corps 
three main mission areas and for related work, including research and 
development. The Budget also supports the Corps planning and technical 
assistance programs, including using its expertise to help local 
communities increase their resilience to, and preparedness for, flood 
risks.
                          construction program
    The Budget provides $1.019 billion for the construction program, 
including $872 million in the Construction account, $109 million in the 
Mississippi River and Tributaries account, $5.25 million in the Inland 
Waterways Trust Fund account and $32.6 million in the Harbor 
Maintenance Trust Fund account.
    The goal of the construction program is to produce as much value as 
possible for the Nation from the available funds. The Corps uses 
objective performance measures to allocate this funding. Projects 
funded primarily due to their economic return, require a benefit-to-
cost ratio of 2.5-to-1 or higher, calculated at a 7-percent discount 
rate. Projects funded on the basis of their environmental return must 
demonstrate that they will restore degraded ecosystem structure, 
function and/or process to a more natural condition. Funding is also 
prioritized for mitigation work at ongoing construction projects, and 
work needed to comply with treaties or biological opinions. The 
selection process also prioritizes investments, on a risk informed 
basis, in dam safety assurance, seepage control, and static instability 
correction work at dams that the Corps owns and operates, and work to 
address significant risk to human safety, as well as construction of 
dredged material disposal facilities for high and moderate use segments 
of commercial deep-draft, shallow-draft, and inland waterways projects.
                operation and maintenance (o&m) program
    All structures age and can deteriorate over time, causing a 
potential decline in reliability. As stewards of a large portfolio of 
water resources infrastructure, we are working to ensure that its key 
features continue to provide the benefits assumed with project 
construction.
    The Corps continues to improve the efficiency and effectiveness of 
its operation and maintenance program. The Budget focuses on 
investments that address infrastructure maintenance needs on a risk 
informed basis. It supports the Corps asset management program, by 
investing in the highest priority needs among the infrastructure that 
the Corps owns and operates, and in work that will reduce long-term O&M 
costs in real terms.
    The Budget for the operation and maintenance program provides 
approximately $2.1 billion in the O&M account, $135 million in the 
Mississippi River and Tributaries account, and approximately $932.5 
million in the Harbor Maintenance account. The focus is on the 
operation and maintenance of commercial navigation, flood risk 
management, and hydropower projects and other facilities. For example, 
the Budget gives priority to maintenance work at the coastal ports and 
inland waterways with high levels of commercial traffic. However, the 
Budget also funds small ports, with an emphasis on those that support 
significant commercial fishing, subsistence, or public transportation 
benefits. The allocation of funding for maintenance among projects 
reflects a risk- informed assessment that considers both project and 
project component conditions as well as the consequences in the event 
of a failure.
    The concerns that lead to dam modifications and/or interim risk 
reduction measures so that they can continue to serve their authorized 
purposes generally first become apparent through inspections and 
monitoring that the O&M program funds. Additional measures are 
considered and evaluated as new and existing issues are identified. 
Generally, the O&M program supports completed works owned or operated 
by the Corps, including administrative buildings and laboratories. Work 
to be accomplished includes: operation of locks and dams along the 
inland waterways; dredging of inland and coastal Federal channels; 
operating multi-purpose dams and reservoirs for flood risk reduction, 
hydropower, recreation, and related purposes; maintenance and repair of 
facilities; monitoring of completed projects; and general management of 
Corps facilities and the land associated with these purposes including 
work to serve as a responsible steward of the resources on Corps lands.
    The fiscal year 2019 Budget provides $213 million in the O&M 
account for hydropower activities to maintain power components such as 
generators, turbines, transformers and circuit breakers at Corps 
hydropower facilities and keep them operating efficiently and 
effectively. The Corps also receives approximately $275 million each 
year derived from Department of Energy revenues related to power sales, 
and from contributed funds. The Corps is the largest hydropower 
producer in the U.S., operating 24 percent of the Nation's hydropower 
capacity.
                          reimbursable program
    Through the Interagency and International Services (IIS) 
Reimbursable Program, the Corps assists other Federal agencies, State, 
local, Tribal governments, and those of other countries with timely, 
cost-effective solutions. These agencies can turn to the Corps, which 
already has these capabilities, rather than develop their own internal 
workforce and expertise to act as their design and construction agent. 
Such intergovernmental cooperation is effective for agencies and the 
taxpayer, and uses the skills and talents that we bring from our Civil 
Works and Military Missions programs. The work is principally technical 
oversight and management of engineering, environmental, and 
construction projects. The work itself is typically performed by 
private sector firms and is financed by the agencies we service. We 
only accept agency requests that are consistent with our core technical 
expertise, in the national interest, and that can be executed without 
impacting our primary mission areas.
                          emergency management
    The fiscal year 2019 Budget provides $27 million in funding for the 
Flood Control and Coastal Emergencies account to enable the Corps to 
prepare for emergency operations in response to natural disasters. The 
Budget for the emergency management program also includes $5.5 million 
for the National Emergency Preparedness Program.
                  approaches to flood risk management
    The Investigations account also includes $25 million for Corps 
efforts, in conjunction with State floodplain management authorities, 
to provide technical and planning assistance to enable local 
communities to reduce their flood risk, with emphasis on non- 
structural approaches. The Budget continues to invest in the 
development of interagency teams known as Silver Jackets to help 
coordinate Federal assistance in enabling communities to understand 
their flood risks and implement non-structural flood risk management 
solutions.
    The Silver Jackets program is an innovative program, which provides 
a national forum to address State and local flood risk management 
priorities. The Corps participates in these efforts, along with FEMA 
and other Federal agencies. The Budget for the Civil Works program 
funds the Corps staff work on these teams. Each team is developed at 
the State level. The teams share lessons learned at the State level 
with each other, and each team works to apply the available Federal and 
State resources effectively to meet its State's flood risk management 
priorities. Through these collaborative interagency partnerships, we 
are able to target and allocate our Floodplain Management Services and 
other technical assistance programs to support State and local 
priorities with a focus on non-structural flood risk reduction 
measures. These intergovernmental flood risk management teams are now 
active in nearly every State.
                               conclusion
    The fiscal year 2019 Budget represents a continuing, fiscally 
prudent investment in the Nation's water resources infrastructure and 
restoration of aquatic ecosystems. The U.S. Army Corps of Engineers is 
committed to a performance-based Civil Works Program, based on 
innovative, resilient, and sustainable risk-informed solutions.
    Thank you, Mr. Chairman and Members of Subcommittee. This concludes 
my statement. I look forward to answering any questions you or other 
Members of the Subcommittee may have.

    Senator Alexander. Thank you, General Semonite.
    Commissioner Burman, welcome.

                       DEPARTMENT OF THE INTERIOR


                         Bureau of Reclamation

STATEMENT OF HON. BRENDA BURMAN, COMMISSIONER
    Ms. Burman. Thank you, Chairman Alexander, Ranking Member 
Feinstein, and members of the subcommittee for the opportunity 
for Assistant Secretary Petty and me to discuss with you the 
President's budget for the Bureau of Reclamation.
    Reclamation's fiscal year 2019 budget continues to address 
water supply challenges in the West to ensure water 
reliability, efficient generation of energy, celebration of 
America's recreational opportunities, commitments to Tribal 
Nations, and environmental responsibilities.
    The 2019 budget prioritizes funding for Reclamation's 
management responsibilities to provide water and generate power 
in the West.
    I wanted to make a quick note about hydrology because that 
is the backdrop that Reclamation operates within. There is a 
map up at your desk of the western United States, and you will 
see this year, we have had a very interesting north to south 
pattern.
    So if you were in the northern States, you are generally 
above average. The Missouri, the Big Horn, the Columbia are 
above average right now.
    But if you travel further south, the Colorado River system 
is significantly below average continuing an 18 year plus long 
drought. Arizona, New Mexico, the Arkansas are significantly 
below average.
    California had a very dry December, January, and February. 
We were lucky to catch up a little bit in March, but California 
is still below average and making it difficult for water users, 
both families and farms.
    In addressing that, our budget emphasizes the following 
principles.
    First, water reliability and increased storage capacity. We 
cannot deliver reliable water supplies in the West without 
strong and safe infrastructure, and additional storage will be 
necessary to meet our current and future challenges.
    Second, is efficient energy generation. As the Nation's 
second largest producer of hydroelectric power, Reclamation's 
projects and programs constitute an important driver of 
economic growth. Maintaining and modernizing hydropower 
infrastructure to improve generation efficiency and reliability 
and improve cost-effectiveness is a high propriety.
    Third, is providing multipurpose recreation access. Many 
Reclamation projects provide multipurpose water resource 
development benefits, including recreation.
    Lastly, is our mission of conservation. Theodore Roosevelt, 
sometimes referred to as the conservation president, 
established a legacy through land and wildlife conservation. 
Endorsing those principles, Reclamation strives to ensure 
future water delivery and power generation through the 
responsible use and conservation of its resources.
    I believe we will continue to do great things if this 
budget is funded. Let me take a moment to provide you an 
understanding of some of the exciting projects we have 
underway.
    In the Great Plains region, home to Senators Hoeven and 
Tester, we continue collaborating with our stakeholders to 
manage, develop, and protect water resources throughout the 
region. Reclamation is also coordinating with numerous local 
entities to improve job resilience.
    In the Upper Colorado region, home to Senator Udall, we 
request funding for two Indian water rights settlement 
projects: the Navajo-Gallup Water Supply Project and the Aamodt 
Litigation settlement. These settlements provide permanent 
water supplies by building and improving water systems for 
sustainable municipal, industrial, and domestic water supplies 
in those communities.
    The Lower Colorado region encompasses the Lower Colorado 
River Basin is home to Hoover Dam and includes parts of Senator 
Feinstein's State of California. The priority focus here is 
preparing for and protecting water users in Arizona, Nevada, 
and California from the worst effects of drought that is 18 
years and counting.
    Over 75 percent of this region's budget is either paid for 
directly by our partners or through the sale of hydropower 
generation. The region is looking at additional ways to assist 
California with their implementation of other important 
irrigation and water conservation initiatives.
    The Mid-Pacific region, home to the rest of Senator 
Feinstein's State and to Senator Merkley's Oregon has suffered 
from its own unique set of drought-related problems. Last 
year's precipitation was the wettest year on record, but this 
year, we have been dry, and we are once again reducing 
allocations.
    California needs more storage. Despite a recent storm, 2018 
will likely be below average and many water users face 
challenges this year.
    Finally, there is the Pacific Northwest region, home to the 
Grand Coulee Dam, one of the largest hydropower facilities in 
the world. This region encompasses Senator Murray's Washington, 
the rest of Senator Merkley's Oregon, and the State of Idaho.
    Our focus here for the coming year will be on the Boise 
River Feasibility study; that research is designed to increase 
storage opportunities and Reclamation's Anderson Ranch and 
Arrowrock Dams, and at the United States Corps of Engineer's 
Lucky Peak Dam.
    We will also continue with design and implementation 
activities at the Lewiston Orchards Water Exchange and as part 
of the larger Yakima Integrated Plan, there will be continued 
construction at Cle Elum Dam Fish Passage.
    Finally, we will implement multiple biological opinion 
actions as part of the Columbia and Snake River Salmon Recovery 
Program operating under the Federal Columbia River Power 
System.
    2019 promises to be an exciting year. I again thank the 
committee and I am prepared to answer any questions you have of 
the Bureau's fiscal year 2019 budget. Thanks.
    [The statement follows:]
                Prepared Statement of Hon. Brenda Burman
    Thank you, Chairman Alexander, Ranking Member Feinstein, and 
members of the Subcommittee for the opportunity to discuss with you the 
President's fiscal year 2019 Budget for the Bureau of Reclamation. I am 
Brenda Burman, Commissioner of the Bureau of Reclamation.
    The Bureau of Reclamation's fiscal year 2019 Budget provides the 
foundation for Reclamation's efforts to deliver water and generate 
hydropower, consistent with applicable State and Federal law, in a 
cost-effective and environmentally responsible manner in the interest 
of the American public. It also supports the Administration's and 
Department of the Interior's (Department) goals of ensuring the 
efficient generation of energy to meet our economic needs; provision of 
secure water supplies for irrigation, people, and the environment; 
ensuring outdoor recreation opportunities; and fulfilling our 
commitments to Tribal nations. To be successful in achieving these 
results, Reclamation will continue to work with a wide range of 
stakeholders, including water and power customers, Tribes, State and 
local officials, conservation organizations, and others.
    This budget focuses on meeting the Department's priorities, 
including that of ensuring that the Nation's natural resources we 
steward are used for multiple purposes. Working with States, Tribes, 
customers, and local entities, Reclamation will maintain secure and 
reliable water supplies and power generation and fulfill Indian water 
rights obligations, while meeting our environmental responsibilities.
    Reclamation plans to focus on opportunities to increase water 
resources and supply reliability by expanding cost-effective water 
storage opportunities, making investments in modernizing existing 
infrastructure, focusing on local water conflicts, and providing 
support for water infrastructure development benefiting Native 
Americans in order to meet Reclamation's core mission goals.
    The 2019 budget prioritizes funding where it most effectively 
implements Reclamation's management responsibilities for providing 
water and generating power in the West with a priority on water 
reliability, efficient energy generation, recreation, and conservation. 
As the Nation's largest producer of hydroelectric power, Reclamation's 
projects and programs constitute an important driver of economic 
growth. Modernizing hydropower infrastructure to improve generation 
efficiency and reliability and improve cost effectiveness is a high 
priority. Many Reclamation projects provide multi-purpose water 
resource development benefits, including recreation. Reclamation's 
recreation areas represent some of the most popular areas for water-
based outdoor recreation activities in the Nation. Theodore Roosevelt, 
sometimes referred to as the ``conservationist president'', established 
a legacy through land and wildlife conservation. By endorsing those 
principles, Reclamation will strive to ensure future water delivery and 
power generation through the responsible use and conservation of its 
resources.
    Reclamation is requesting a gross total of $1,049,025 in Federal 
appropriations, which is anticipated to be augmented by over $800 
million in other Federal and non-Federal funds for fiscal year 2019. Of 
the total, $891,017,000 is for the Water and Related Resources account, 
which is Reclamation's largest account, $61,000,000 is for the Policy 
and Administration account, and $35,000,000 is for the California Bay 
Delta account. A total of $62,008,000 is budgeted for the Central 
Valley Project Restoration Fund, to be offset by expected discretionary 
receipts in the same amount. We will continue to seek to optimize non-
Federal contributions to accomplish more with limited Federal dollars.
    Reclamation's budget includes a substantial request for Indian 
water rights settlements, continuing the high prioritization of this 
program to meet trust and treaty obligations. The fiscal year 2019 
Budget includes second year funding to support the Blackfeet Water 
Rights Settlement, which was authorized by Water Infrastructure 
Improvements for the Nation Act (Public Law 114-322) (WIIN) in December 
2016. The WIIN Act requires full funding for the Blackfeet Settlement 
by the enforcement date of January 21, 2025. The fiscal year 2019 
Budget also continues funding to keep implementation of other water 
settlements on track. These include the Navajo-Gallup Water Supply 
Project as part of the Navajo-San Juan settlement and the Aamodt 
Litigation, Crow, Ak-Chin, San Carlos Apache, Colorado Ute, and Nez 
Perce settlements.
    Reclamation's mission is to manage, develop, and protect water and 
related resources in an economically and environmentally sound manner 
in the interest of the American public. As a result, it has designed 
the infrastructure it manages to account for significant variability in 
hydrology and other weather conditions from year to year. The 
robustness of the water system has been tested in recent years through 
extreme droughts as well as floods. During the winter of 2017, above 
average precipitation in much of the Western United States improved 
water supplies after many years of drought. But the long-term impacts 
from droughts, such as those in the Colorado River Basin, are not 
recovered in a single wet year. Many portions of the West remain 
abnormally dry or in moderate to extreme drought according to the most 
recent U.S. Drought Monitor. Reclamation must ensure that its 
infrastructure is sized and maintained appropriately to handle wet 
periods and floods to cost-effectively capture water supplies for drier 
times. The investments described in Reclamation's fiscal year 2019 
budget will further these efforts so that Reclamation can continue to 
provide reliable water and power to the American West.
    Reclamation's dams and reservoirs, water conveyances systems, and 
power generating facilities are integral components of the Nation's 
infrastructure. Effectively managing the benefits provided by these 
structures are among the many significant challenges that Reclamation 
faces that extend over the next 5 years and beyond in its ability to 
achieve progress on its mission objectives. Changing demographics and 
competing demands are increasingly impacting already strained systems. 
Reclamation's water and power projects and activities throughout the 
western United States are not only foundational for essential and safe 
water supplies for both agricultural, municipal and industrial 
purposes, but also provide energy in the form of hydropower, and 
maintain ecosystems that support fish and wildlife, hunting and 
recreation, as well as rural economies.
    This budget addresses priorities by allocating funds based on 
objective and performance-based criteria to most effectively implement 
Reclamation's programs and its management responsibilities for its 
water and power infrastructure in the West. Water management, improving 
and modernizing infrastructure, using sound science to support critical 
decisionmaking, finding opportunities to expand capacity, reducing 
conflict, and meeting environmental responsibilities were all addressed 
in the formulation of the fiscal year 2019 budget. Reclamation 
continues to use appropriated resources to address challenges faced in 
water resources management and to improve the way it does business. 
Additionally, to help address these needs, in fiscal year 2019 and 
beyond, Reclamation will continue to explore alternative types of 
financing, to include all forms of public-public and public-private 
partnerships, and non-Federal cost-sharing.
    As the largest supplier and manager of water in the Nation and the 
second largest producer of hydroelectric power, Reclamation's projects 
and programs are foundational to driving and maintaining economic 
growth in hundreds of watershed basins throughout the United States. 
Reclamation manages water for agricultural, municipal and industrial 
use, and provides flood control and recreation for millions of people. 
According to the fiscal year 2016 Department of the Interior Economic 
Report fiscal year 2016, Reclamation's activities, including recreation 
benefits, provide an economic contribution of $48.1 billion, and 
support approximately 388,000 jobs.
    Reclamation operates 53 hydroelectric power plants that account for 
15 percent of the hydroelectric capacity and generation in the United 
States. Annually, Reclamation generates on average 37 billion kilowatt 
hours of electricity, enough to meet the annual needs of over 3.5 
million households, and collects over $1.0 billion in gross power 
revenues for the Federal Government.
Department Wide Reorganization Plan
    The Department of the Interior is taking bold steps to better 
position itself for the next 100 years. In response to President 
Trump's Executive Order on a Comprehensive Plan for Reorganizing the 
Executive Branch, Secretary Zinke laid out a vision for a reorganized 
Department of the Interior which aligns regional boundaries within 
Interior to provide better coordination across the Department to 
improve mission delivery and focuses resources in the field. Across the 
Department, the 2019 budget includes a total of $17.5 million to start 
this effort. The Reclamation budget includes $3.4 million to support 
the Department's migration to common regional boundaries to improve 
service and efficiency and to ensure that Reclamation staff are in 
positions where they can most effectively carryout Reclamation's 
mission and serve the American public.
                         account level details
    The fiscal year 2019 budget allocates funds to projects and 
programs based on objective, performance-based criteria to most 
effectively implement Reclamation's programs and its management 
responsibilities for its water and power infrastructure in the West.
    The fiscal year 2019 budget emphasizes the following principles:
  --Shared Responsibility.--Securing non-Federal cost-share partners to 
        meet project or program funding needs, and leverage funding 
        through these collaborative partnerships.
  --Merit-Based Funding.--Utilizing competitive processes for the 
        awarding of grants, contracts, or other government services 
        based on published criteria that reflect Departmental and 
        Administrative priorities. The selection of awards is, wherever 
        possible, guided by high quality evidenced based research and 
        performance measures.
  --Core Mission in Framework of Department of the Interior 
        Priorities.--Performing the core management responsibilities of 
        providing water and power in alignment with Department 
        priorities and the goals in the Strategic Plan of 2018-2022.
    The fiscal year 2019 budget for Reclamation totals $1.049 billion 
in gross budget authority. The budget is partially offset by 
discretionary receipts in the Central Valley Project Restoration Fund 
($62 million) resulting in net discretionary budget authority of $987 
million.
               water and related resources--$891,071,000
    The fiscal year 2019 Water and Related Resources budget provides 
funding for five major program activities--Water and Energy Management 
and Development ($252.9 million), Land Management and Development 
($44.3 million), Fish and Wildlife Management and Development ($149.7 
million), Facility Operations ($295.8 million), and Facility 
Maintenance and Rehabilitation ($148.3 million). The funding proposed 
in Reclamation's fiscal year 2019 Budget supports key programs 
important to the Department and in line with Administration objectives.
    By far, the greatest portion of Reclamation's Water and Related 
Resources budget is dedicated to our core mission--managing water 
resources. This is accomplished within over 300 Congressionally 
authorized projects, each of which has its own authorization. Ensuring 
a safe and sound infrastructure plays a critical role in this mission 
delivery. In order to modernize our infrastructure, over $88 million is 
requested for the Dam Safety program, an additional $45 million is 
requested to address extraordinary maintenance items, and over $26 
million is requested for site security to protect our infrastructure 
investments.
    Reclamation's efforts to support water supplies for Tribal nations 
are long standing and include certain rural water projects and 
implementation of water rights settlement actions. Funding to support 
Tribal nations is included within a number of projects. For example, 
the Ak Chin Water Rights Settlement Act Project budget of $16.2 million 
facilitates delivery of Colorado River water through the Central 
Arizona Project to 16,000 acres of irrigated lands on the Ak-Chin 
Indian Reservation. The fiscal year 2019 budget continues the 
implementation of the Blackfeet Indian Water Rights Settlement enacted 
in December 2016, two settlements enacted in December 2010 (Crow and 
the Aamodt Litigation) and the 2009 authorized Navajo-Gallup Water 
Supply. Additionally, the Columbia/Snake River Salmon Recovery; Animas-
La Plata, San Carlos, Klamath, Trinity River Restoration Program within 
the Central Valley Project, Yakima River Basin Water Enhancement 
Project, and three of the five authorized rural water projects 
(discussed below) benefit Tribal nations.
    The Native American Affairs Program budget of $10.6 million 
continues support for Reclamation activities with Indian Tribes. These 
activities include providing technical support for Indian water rights 
settlements, and to assist Tribal governments to develop, manage and 
protect their water and related resources. The office also provides 
policy guidance for Reclamation's work with Tribes throughout the 
organization in such areas as the Indian trust responsibility, 
government-to-government consultation, and Indian self-governance and 
self-determination.
    More generally, Reclamation's budget supports its role in 
implementing Indian water rights settlements; this includes $6.3 
million to improve coordination and application of expertise to analyze 
Indian water settlements more effectively and expediently to strengthen 
Department-wide capabilities in the Secretary's Indian Water Rights 
Office, and achieve an integrated and systematic approach to Indian 
water rights negotiations.
    Reclamation has identified several key areas for investment where 
coordination with other Department bureaus will leverage results to 
more effectively achieve mission outcomes. Reclamation's fiscal year 
2019 budget for research and development (R&D) programs include both 
Science and Technology, and Desalination and Water Purification--both 
of which focus on Reclamation's mission of water and power deliveries.
    The Science and Technology program supports engineering innovation 
that promotes economic growth, supports maintaining and improving our 
water and power infrastructure, and spurs continued generation of 
energy. Program outcomes also enable reliable water and power delivery 
to our customers, improve safety, limit the impacts of invasive 
species, and ensure that Reclamation can meet its environmental 
compliance responsibilities. These activities support the 
Administration's priorities for the fiscal year 2019 Budget, including 
job creation by supporting technology transfer activities that may lead 
to new business opportunities for private industry. The program also 
supports Administration priorities related to maintaining and improving 
our water and power infrastructure by partnering with the U.S. Army 
Corps of Engineers to foster research projects to develop technologies 
that extend the operating life and reduce maintenance costs of 
Reclamation's structures. The Administration priority related to energy 
from all sources is supported by hydropower research that ensures that 
Reclamation is maximizing reliability, reducing maintenance costs, and 
exploring new energy development opportunities. Research on safety is 
ensuring our workers can perform their jobs safely and securely.
    The Desalination and Water Purification program priorities include 
development of improved and innovative methods of desalination and 
reducing costs to develop new water supplies. The research and testing 
funded out of this program supports the Administration's priorities for 
the fiscal year 2019 Budget--including job creation--by supporting 
innovative new solutions that spur the creation of new businesses by 
entrepreneurs and by advancing Reclamation's competitive edge in the 
area of water treatment and desalination.
    Reclamation's mission to ensure continued water delivery and power 
generation cannot be accomplished without meeting our legal 
environmental responsibilities. Reclamation meets these 
responsibilities on its individual projects through a large number of 
activities, including Reclamation's Endangered Species Act recovery 
programs, and other programs that contribute towards these efforts, 
such as the Columbia/Snake River Salmon Recovery Program, the Middle 
Rio Grande Project Collaborative Program, the San Juan River Recovery 
Implementation Program, the Upper Colorado Recovery Implementation 
Program, and the Multi-Species Conservation Program within the Lower 
Colorado River Operations Program, among many others.
    Among other efforts, Reclamation helps address the West's water 
challenges through the WaterSMART competitive grant program. This 
program helps local water stakeholders address current and future water 
shortages, including drought; degraded water quality; increased demands 
for water and energy from growing populations; environmental water 
requirements; and the potential for decreased water supply availability 
due to drought, population growth, and increased water requirements for 
environmental purposes.
          central valley project restoration fund--$62,008,000
    This fund was established by the Central Valley Project Improvement 
Act, Title XXXIV of Public Law 102-575, October 30, 1992. The budget of 
$62.0 million is expected to be offset fully by discretionary receipts 
to the maximum extent possible based on what can be collected from 
project beneficiaries under provisions of Section 3407(d) of the Act. 
The discretionary receipts are adjusted on an annual basis to maintain 
payments totaling $30.0 million (October 1992 price levels) on a 3-year 
rolling average basis. The budget of $62.0 million for the CVPRF 
(Central Valley Project Restoration Fund) was developed after 
considering the effects of the San Joaquin River Restoration Settlement 
Act (Public Law 111-11, March 30, 2009), which redirects certain fees, 
estimated at $2.0 million in fiscal year 2019, collected from the 
Friant Division water users to the San Joaquin Restoration Fund.
           california bay-delta restoration fund--$35,000,000
    The CALFED Bay-Delta Restoration Act (Public Law 108-361), as 
amended, authorized multiple Federal agencies to participate in the 
implementation of the CALFED Bay-Delta Program as outlined in the 
August 28, 2000, Record of Decision (ROD) for the CALFED Bay-Delta 
Program Programmatic Environmental Impact Statement and Environmental 
Impact Report. The legislation directed the implementing agencies to 
undertake a set of broadly described programmatic actions identified in 
the ROD to the extent authorized under existing law. In addition, the 
Act authorized $389.0 million in Federal appropriations for new and 
expanded authorities. The Water Infrastructure Improvement for the 
Nation Act (Public Law 114-322) dated December 16, 2016 reauthorized 
the CALFED Bay Delta Authorization Act through fiscal year 2019.
    The fiscal year 2019 Budget of $35.0 million implements priority 
activities pursuant to Public Law 108-361. Six Federal agencies--the 
Department of the Interior, Department of Commerce, Department of 
Agriculture, Department of the Army, Environmental Protection Agency, 
and the Council on Environmental Quality--work together to ensure that 
the Federal actions and investments the Administration is undertaking 
are coordinated in a fashion to help address California's current water 
supply and ecological challenges.
                 policy and administration--$61,000,000
    The $61.0 million budget will be used to: (1) develop, evaluate, 
and directly implement Reclamation-wide policy, rules, and regulations, 
including actions under the Government Performance and Results Act; and 
(2) manage and perform functions that are not properly chargeable to 
specific projects or program activities covered by separate funding 
authority.
    This completes my statement. I would be happy to answer any 
questions.

    Senator Alexander. Thank you, Commissioner Burman.
    Dr. Petty, welcome.
STATEMENT OF TIMOTHY R. PETTY, PH.D., ASSISTANT 
            SECRETARY FOR WATER AND SCIENCE
    Dr. Petty. Thank you, Chairman Alexander, Ranking Member 
Feinstein, and also the whole subcommittee that is here today.
    I look forward to discussing with you the President's 
budget for the Bureau of Reclamation, as well as the Central 
Utah Project Completion Act, which is also responsible in the 
Water and Science hallway. I appreciate your ongoing support of 
our programs.
    The overall Department of the Interior's 2019 budget 
request is $11.7 billion, which emphasizes Interior's role in, 
one, protecting the Nation's natural resources, advancing 
America's natural energy, providing vital scientific 
information for responsibly managing our resources, as well as 
energy development, and lastly, honoring our trust 
responsibilities to the Native Americans.
    The Bureau of Reclamation's activities include, in a 
broader area, not only Reclamation as the Commissioner talked 
about, but contributes more than $48 billion in economic 
resources and supports over 388,000 jobs each year, which was 
also mentioned in opening.
    Reclamation's 37 billion kilowatt hours of electricity 
provides for more than $1 billion in gross power revenues for 
the Federal Government.
    The Bureau of Reclamation works with States, Tribes, local 
governments, and nongovernment organizations to provide 
reliable water, as well as power supply for the West.
    The 2019 budget continues efforts to address the challenges 
of water availability. Interior's $1 billion total budget 
request for Reclamation is to invest in our water, as well as 
power infrastructure, facilitating the delivery of water to 31 
million people in the West. In addition, our program invests in 
ecosystem protection and restoration, so that we can continue 
to supply water and power reliability as we have done 
historically.
    This budget also continues to strengthen our Tribal Nations 
by implementing Indian water rights settlements. We are 
proposing that Reclamation invest $127.4 million in fiscal 2019 
toward fulfilling those responsibilities.
    Interior's budget furthers our commitment to developing 
domestic energy resources in order to make America stronger, as 
well as energy independent.
    Hydropower, as mentioned, is a renewable and reliable 
resource providing clean energy to the western United States. 
It is the Nation's largest renewable energy resource, and the 
Bureau of Reclamation is the second largest producer of 
hydropower in the United States.
    We support the President's efforts to create a leaner, more 
efficient government, and the Bureau of Reclamation will be 
actively involved in bringing forward the most promising ideas 
to improve government effectiveness and efficiency, and to spur 
economic growth.
    For example, Reclamation has developed a proposal to 
facilitate the transfer of title of certain Reclamation 
projects when such transfers are beneficial to all parties. 
This will allow irrigation districts and water managers to make 
their own decisions to improve water management at the local 
level.
    Finally, Interior's budget request includes resources for 
the Central Utah Project Completion Act, which falls under the 
jurisdiction of the Assistant Secretary for Water and Science. 
The 2019 budget for this Office is $8 million. Of this amount, 
$3.4 million will be available for planning and construction 
activities administered by the Central Utah Water Conservancy 
District, continuing our important partnerships and the ongoing 
construction of the Utah Lakes System Facility.
    The budget also continues Interior's required program 
oversight activity and Endangered Species Recovery Program 
implementation through the Department's CUPCA (Central Utah 
Project Completion Act) office.
    The Central Utah Project annually provides 62,000 acre feet 
of water for irrigation and over 100,000 acre feet for 
municipal and industrial purposes supplying water to nearly 
400,000 people; a big portion of the State of Utah.
    In keeping my opening comments brief, I would like to 
submit my whole testimony into the record.
    Thank you again for your support of our programs.
    I am happy to take any questions that you might have at 
this time.
    Thank you.
    [The statement follows:]
             Prepared Statement of Timothy R. Petty, Ph.D.
    Thank you, Chairman Alexander, Ranking Member Feinstein, and 
members of this Subcommittee for the opportunity to discuss with you 
the President's fiscal year 2019 budget for the Department of the 
Interior's Bureau of Reclamation and Central Utah Project Completion 
Act office. I am Tim Petty, Interior's Assistant Secretary for Water 
and Science, and I appreciate your ongoing support of our programs.
    The 2019 budget request is $11.7 billion for Department of the 
Interior's programs. This budget features targeted investments to 
advance American energy dominance, enhance public access to public 
lands, and strengthen the economy through infrastructure investment, 
regulatory relief, and fiscal responsibility. The Department's 2019 
budget reflects the Administration's commitment to strike the right 
balance of development and conservation of America's resources to 
advance important national objectives.
           generating revenue and utilizing natural resources
    The Department of the Interior 2019 budget emphasizes the crucial 
contributions the Department's diverse missions make to the Nation's 
economy. According to Interior's latest economic report, Interior 
supports $254 billion in estimated economic benefit, while direct 
grants and payments to States, Tribes, and local communities provide an 
estimated $10 billion in economic benefit. The Bureau of Reclamation's 
activities, including recreation, contribute over $48 billion in 
economic activity and support over 388,000 jobs each year. The 
availability of water is vitally important to communities and to 
growing healthy economies across the West. To ensure that millions of 
customers continue to receive essential water supplies and 
hydroelectric power, the 2019 budget includes $1.0 billion for 
Reclamation's water resource programs.
    Interior's budget request for Reclamation invests in our water and 
power infrastructure, facilitating the delivery of water to 31 million 
people in the West. This budget also continues to strengthen our tribal 
nations by implementing Indian water rights settlements and furthering 
the construction of water delivery systems that support Tribes and 
rural communities. Interior's request includes $127.4 million for 
Reclamation in 2019 towards fulfillment of this responsibility.
    Interior's budget furthers our commitment to developing domestic 
energy resources in order to make America stronger and boost the 
Nation's economy. Hydropower is the Nation's largest renewable energy 
resource and the Bureau of Reclamation is the second largest producer 
of hydropower in the United States.
    Finally, Interior's budget request includes the Central Utah 
Project Completion Act Office, which falls under the jurisdiction of 
the Assistant Secretary for Water and Science. The Central Utah Project 
annually provides 62,000 acre-feet of water for irrigation of over 
30,000 acres and over 100,000 acre-feet for municipal and industrial 
purposes, supplying water to nearly 400,000 people. This water will 
help address the water demands of the growing population in the Wasatch 
Front, one of the fastest growing areas in the Nation.
                       advancing energy dominance
    The Department has a significant role to play in securing an energy 
future for our Nation that achieves America's energy dominance. Through 
increasing access to public lands and alleviating unnecessary 
regulatory burdens while balancing conservation objectives, the 
Department is working to ensure that the Nation's ``all-of-the-above'' 
energy development strategy includes not only conventional sources, but 
also hydropower and other renewable sources.
    Reclamation's 2019 request includes $1.1 million to support 
hydropower development initiatives. These initiatives include 
activities designed to achieve operational efficiencies at Reclamation 
hydropower facilities and to promote the development of new, non-
Federal hydropower on existing, non-powered Reclamation infrastructure. 
Funding will provide for technological and operational innovation, as 
well as the policy execution and oversight of nonFederal hydropower 
development at existing Reclamation facilities through Lease of Power 
privilege or Federal Energy Regulatory Commission licensing.
    The 2019 budget also supports innovation by using prize 
competitions to target difficult scientific and technological problems 
related to infrastructure, water availability and hydropower 
generation.
       conserving our land and water and expanding outdoor access
    As the largest wholesaler of water in the country, Reclamation has 
a leading role--in coordination with other Federal agencies, State 
officials, local water users, and interested stakeholders--in 
developing strategies to help ensure water supplies for future 
generations. As managers of critical water resources, Reclamation 
ensures millions of customers receive the water and power supplies that 
support a healthy economy. To help address the many challenges faced by 
water managers, Interior continues the implementation of the WaterSMART 
Program. The funding proposed in Reclamation's 2019 WaterSMART budget 
supports collaboration with the US Geological Survey and our non-
Federal partners in efforts to address emerging water demands and water 
shortage issues in the West, to promote water conservation and improved 
water management, and to support local innovation efforts to stretch 
water supplies.
    The WaterSMART funding request for Reclamation in 2019 is $19.9 
million. This investment includes $10.0 million to continue WaterSMART 
conservation grants and $3.0 million for Title XVI water recycling and 
reuse research grants, and is highly leveraged through partner 
costshare funding.
    In addition, Interior's budget request includes $164.9 million for 
US Geological Survey Water Resource programs. These programs collect 
and deliver hydrologic data, model and analyze hydrologic systems, and 
conduct research and development leading to new understanding of and 
methods for gathering water data. The budget includes $69.7 million for 
National Water Quality Program activities, and $64.9 million for the 
Groundwater and Streamflow Information Program, which will maintain the 
national streamgage networks to provide long-term data collection and 
development of analysis tools. The budget also includes $30.4 million 
to assess water availability and use in support of the National Water 
Census.
    Reclamation projects play a major role in meeting the increasing 
public demand for water-based outdoor recreation opportunities. 
Reclamation projects include approximately 6.5 million acres of land 
and water and over 200 recreation areas available to the public. This 
includes 12 designated National Recreation Areas that are managed by 
the National Park Service or United States Forest Service. Through non-
Federal partnerships, Reclamation assists local communities in 
attracting recreation-related investments and involves local citizens 
in the decisionmaking process.
    Invasive Mussels: With increased use of Reclamation reservoirs for 
recreation comes the increased need for monitoring and early detection 
of invasive quagga and zebra mussels, and for outreach and education to 
prevent infestation. The 2019 Reclamation budget includes $7.6 million 
for prevention, early detection and monitoring, containment and control 
at existing facilities, outreach and education, and research focused on 
these issues. This funding will support Reclamation's efforts to 
proactively stop the spread of invasive mussels in the West, including 
preventing the spread of zebra and quagga mussels into the Columbia 
River Basin.
    The US Geological Survey is also actively working to detect and 
respond to invasive species, including invasive mussels. Interior's 
budget provides $19.3 million across several USGS programs in support 
of invasive species detection and response efforts and research.
 modernizing our organization and infrastructure for the next 100 years
    Reclamation's dams, water conveyances, and power generating 
facilities are integral components of our Nation's infrastructure that 
provide basic water and power services to millions of customers in 
hundreds of basins throughout the Western United States. Effectively 
managing the benefits that these structures provide is among the 
significant challenges facing Reclamation over the coming years. 
Reclamation manages 492 dams throughout the 17 Western States. 
Reclamation's budget request includes funding for specific 
Extraordinary Maintenance activities that are central to mission 
objectives of operating and maintaining projects to ensure delivery of 
water and power. Through constant monitoring and assessment, 
Reclamation strives to most effectively use its limited resources to 
ensure dam safety and to maintain the ability to store and divert water 
and to generate hydropower. Reclamation's 2019 budget includes $45.0 
million for extraordinary maintenance, repairs and replacements.
    The Dam Safety Program continues to be one of Reclamation's highest 
priorities, utilizing the latest information and technology to evaluate 
and address the most pressing safety risks in order to ensure 
reliability and protect the downstream public. The Dam Safety Program 
has identified 363 high and significant hazard dams. Reclamation 
evaluates dams and monitors performance to ensure that risks do not 
exceed current Reclamation public protection guidelines. The 2019 
budget request includes $88.1 million for Reclamation's Dam Safety 
Program.
                 fulfilling our trust responsibilities
    The Department of the Interior upholds the Federal Government's 
unique trust responsibilities to federally recognized Tribes, American 
Indians and Alaskan Natives. Interior's 2019 budget continues to 
support Federal responsibilities and tribal needs related to education, 
social services, infrastructure, and stewardship of land, water, and 
other natural resources.
    The 2019 budget includes $173.0 million across the Department to 
honor Indian land and water Settlement commitments. This includes 
$127.4 million in Reclamation and $45.6 million in BIA. The budget 
continues to meet Federal responsibilities outlined in enacted land and 
water rights claim settlements with Indian Tribes to ensure they have 
access to land and water to meet domestic, economic, and cultural 
needs. Also within the Reclamation request, $10.6 million will support 
Reclamation's Native American Affairs program to work with and support 
Tribes in the resolution of their water rights claims, which also 
strengthens the Department's capabilities to achieve an integrated and 
systematic approach to Indian water rights negotiations.
                         management and reforms
    Interior is taking bold steps to better position itself for the 
next 100 years. In response to the President's Executive Order on a 
Comprehensive Plan for Reorganizing the Executive Branch, Interior is 
working to reorganize its operating structure to establish unified 
regional boundaries to provide better coordination across the 
Department to improve mission delivery and focus resources in the 
field. The Department's 2019 budget includes a total of $17.5 million 
for this effort.
    In addition, the Department is pursuing ideas to improve government 
effectiveness and efficiency, and to spur economic growth. For example, 
Reclamation has developed a proposal to facilitate the transfer of 
title of certain Reclamation projects and facilities when such 
transfers are beneficial. While Reclamation has engaged in efforts 
related to title transfer in the past on a case by case basis, this 
broader initiative will go further to facilitate greater local control 
of water infrastructures to allow local water managers to make their 
own decisions to improve water management at the local level, while 
allowing Reclamation to focus management efforts on larger projects 
with a greater Federal nexus.
                          central utah project
    The Central Utah Project Completion Act (CUPCA), Titles II--VI of 
Public Law 102-575, provides for completion of the Central Utah Project 
(CUP) by the Central Utah Water Conservancy District (District). The 
Act also authorized funding for fish, wildlife, and recreation 
mitigation and conservation; established an account in the Treasury for 
deposit of these funds and other contributions; established the Utah 
Reclamation Mitigation and Conservation Commission to coordinate 
mitigation and conservation activities; and provided for the Ute Indian 
Rights Settlement.
    The 2019 budget for the CUPCA program is $8.0 million. Of this 
amount, $3.4 million will be available for planning and construction 
activities administered by the Central Utah Water Conservancy District, 
continuing our partnership in the ongoing construction of the Utah Lake 
System facilities. In addition, $898,000 will be transferred to the 
Utah Reclamation Mitigation and Conservation Account for use by the 
Utah Reclamation Mitigation and Conservation Commission. The 2019 
budget also continues Interior's required program oversight activities 
and endangered species recovery program implementation through the 
Department's CUPCA Office.
                               conclusion
    Thank you for the opportunity to testify on behalf of the 
President's 2019 budget for the Department of the Interior's Bureau of 
Reclamation and Central Utah Project Completion Act. I look forward to 
working with the Committee to implement this budget. This concludes my 
testimony and I am happy to answer questions.

    Senator Alexander. Thank you, Dr. Petty.
    We will now begin a 5 minute round of questions. Mr. James, 
let me begin with you. I have a few questions about the Inland 
Waterways Trust Fund.
    In 2014, my notes show that we raised taxes. We increased 
the fee on a gallon of gasoline from $.20 to $.29 per gallon.
    Is that correct?
    Mr. James. Yes, sir.
    Senator Alexander. And increasing the fee, increased the 
amount of money deposited into the Trust Fund by about $20 
million a year. And so, on the average, it has been about $107 
million a year.
    Is that correct?
    Mr. James. Yes, sir. It is.
    Senator Alexander. And the President's budget estimates 
that the Trust Fund will collect about that same amount in the 
upcoming year, $104 million.
    Is that correct?
    Mr. James. My understanding, sir, it is close to $108 
million.
    Senator Alexander. So maybe $108 million. We raise taxes on 
the large barge owners who said, ``We will pay higher taxes if 
you will fix the locks.'' And so, now we are collecting $104 
million from them.
    How much of that $104 million does the budget propose to 
spend?
    Mr. James. About $5.3 million.
    Senator Alexander. About $5.3 million out of $104 million. 
So if you are not proposing to spend what we are already 
collecting, why would you propose raising taxes further on 
waterway users?
    Mr. James. My understanding, sir, is that the Corps 
foresees a lot of work that is going to be done in the future. 
And at the present rate of the taxing, the money would not be 
there.
    Senator Alexander. Well, Mr. James, that might be true, but 
if you are not spending what you are already collecting, why 
would you collect more?
    Mr. James. I cannot argue with you, sir.
    Senator Alexander. All right.
    General Semonite, let me ask you this. Over the past 4 
years, thanks to your good work and the Corps of Engineers, you 
have restarted construction of the Chickamauga Lock.
    I believe I remember that you visited with me in my office 
and said that you were of the belief that efficient management 
of lock construction meant that it was better not to start and 
stop, but once you start to keep going.
    Am I remembering right?
    General Semonite. You definitely are, sir.
    Senator Alexander. Under the budget, how much money could 
you spend this next year on Chickamauga Lock?
    General Semonite. Sir, we have done a lot of research on 
all of those locks and we identify the high priority. You 
talked about the big four. Right now, we estimate a capability 
of $78 million in the 2018 timeframe. We have also gone out to 
2019, 2020, and 2021.
    Senator Alexander. In 2018 for Chickamauga Lock?
    General Semonite. That would be a capability we could put 
in if, in fact, the plan is approved. Yes, sir.
    Senator Alexander. But what is 2019?
    General Semonite. Sir, the 2019 number would be on the 
order of $99.5 million.
    Senator Alexander. That is how much you could spend.
    General Semonite. We could, capability-wise.
    Senator Alexander. You could spend.
    General Semonite. A logical time to be able to get that 
amount of construction in the ground. Yes, sir.
    Senator Alexander. Yes, but would the amount of money that 
is in this budget allow you to fund all four of those locks at 
the level you could fund them at?
    General Semonite. Not in the budget, sir, but of course, 
what Congress has done is given us that extra plus-up. 
Therefore, we have been charged to be able to figure out where 
is the best place to use that. I have to submit to Mr. James 
that logical plan and then he will continue to be able to 
approve that.
    Senator Alexander. But what we have done the last 4 years 
is, in the Congress, we have not paid much attention to the 
President's budget.
    What we have done is try, over the last 4 years, on the 
Inland Waterway Trust Fund and the Harbor Maintenance Fund, to 
set targets that would allow you to continue on Inland Waterway 
to fund all four of those within the capability that you have. 
It would be my goal to try to do that this year again.
    General Semonite. And that is our plan, sir.
    Senator Alexander. Yes, if you have the money.
    General Semonite. If we had the money.
    Senator Alexander. If you have the money. Now, let us go, 
Mr. James, to the Harbor Maintenance Trust Fund. In the Inland 
Waterway Trust Fund, we at least do not have much of a balance 
in there. We have spent about everything in it.
    But in the Harbor Maintenance Trust Fund, how much balance 
do we have today?
    Mr. James. About, I think it is----
    Senator Alexander. I think it is about $9 billion and I 
have about 40 seconds left.
    Mr. James. Yes, sir. It is $9 or $10 billion.
    Senator Alexander. I am going to go pretty fast.
    How much are you proposing to collect in revenues for the 
Harbor Maintenance Trust Fund in the upcoming year 2019?
    Mr. James. A little over a billion and a half.
    Senator Alexander. How much?
    Mr. James. One-and-a-half.
    Senator Alexander. Billion?
    Mr. James. Billion.
    Senator Alexander. So that would take it up over $10 or 
$11.
    How much are you proposing to spend from the Trust Fund in 
the year 2019?
    Mr. James. Around $950 million.
    Senator Alexander. Is not the target for the Harbor 
Maintenance Trust Fund established in the 2014 legislation 
about $1.44 billion? Was that not the congressional target?
    Mr. James. Yes, sir. It was.
    Senator Alexander. So you would spend a lot less than that.
    Mr. James. Yes, sir.
    Senator Alexander. Well, I would say--and now my time is 
up, and I want to set a good example--but I know that Chairman 
Shelby and the Vice Chairman Senator Feinstein, and others of 
us will want to try to at least have our target for next year, 
and you are about one-half billion dollars short. So we need to 
go to work on that.
    Senator Feinstein.
    Mr. James. Thank you, sir.
    Senator Feinstein. Thank you very much, Mr. Chairman.
    I have a question for both Mr. James and Ms. Burman.
    I will never forget the Sunday afternoon just over a year 
ago when we heard that the collapse of Oroville Dam's emergency 
spillway was imminent. It would threaten 180,000 lives if it 
collapsed.
    We were very fortunate. The disaster was averted. But I 
think it was really a wakeup call because the spillways were 
not in good condition. An independent panel of experts just 
issued a report in January that recommended specific 
improvements in dam safety. This committee has asked and 
directed each of you to report back to us on how you will 
respond to the Oroville independent panel's report.
    Do you have any news or views on this that you might tell 
us this afternoon? Maybe we will just begin with you, Mr. 
James.
    Mr. James. Yes, ma'am. Thank you very much.
    I will tell you that, of course, Oroville was not a Corps 
dam, but we have been very active with the people there at that 
dam site to see what did happen, why did it happen, and analyze 
all of that. I think we have a meeting with you on May 7, if I 
am not mistaken, to go over the details of what has been 
discovered about that.
    That also led us to take harder looks at the Corps' dams 
around the country, and be more specific and serious about dam 
safety. In my experience in this business, with dams, those 
overflow structures, spillways are usually what do go out once 
they overtop. Through age, and settling, and desiccation of the 
concrete, that is what happens to them.
    We are looking at that very closely.
    Senator Feinstein. But you have no findings or suggestions 
at this time?
    Mr. James. I think probably the Corps does. There are none 
that reached my desk, ma'am. So I will not tell you what I do 
not have. But the General might speak more to that. I do not 
know.
    Senator Feinstein. General, can you comment?
    General Semonite. Senator, you are aware, we have been out 
there several times. We are working very, very closely with the 
Oroville team to be able to make sure that we are learning. We 
do have a lot of lessons learned from that. We have shared 
those back, just like the Secretary said.
    We have also seen the same thing in Puerto Rico. The dam 
down there failed; the spillway. So we are trying to make sure 
that not only do the Federal dams learn from those, but we go 
back and build-in to our body of knowledge, what did we learn 
from that, and continue to be able to build that into our dam 
safety center.
    Senator Feinstein. Well, what did you learn from Oroville?
    General Semonite. I think on this specific one you have to 
watch out for any kind of erosion underneath there. We can give 
you a technical report. But it really goes back to the 
inspections. You cannot just assume that because it looks good 
on the top, that it is going to be strong enough to carry that 
water load.
    Senator Feinstein. Was the cement or concrete thick enough?
    General Semonite. Ma'am, I am not prepared to be able to 
specifically say here what went right or wrong with respect to 
Oroville. I think that is something that the team continues to 
be able to come up with their assessment on.
    Senator Feinstein. I do not want to put you on the spot, 
but I would appreciate any observations. The Corps has been 
very silent. This is the first time it has happened in a 
quarter of a century. It was very serious and it could have 
been disastrous.
    So it would be very helpful to me as we carry out this 
budget and asks of the Department, that I know what the problem 
was.
    General Semonite. Ma'am, we met with you several times. We 
will come and lay this out for you in your office at any time 
you would like.
    Senator Feinstein. I would appreciate that.
    General Semonite. Sound good?
    Senator Feinstein. Ms. Burman, I know you have extensive 
experience with California water. I look forward to working 
with you. I would like to discuss a little bit about desal with 
climate change and population growth causing ever-growing 
challenges.
    It seems to me that we ought to be really putting some 
emphasis, particularly, on co-states, on desal and particularly 
helping get that final membrane, which changes the energy 
coefficient from negative to positive.
    So as you know, the recent omnibus directed Reclamation by 
April 30 of this year to develop guidelines and criteria for 
administering the new desal program, and to issue a funding 
opportunity announcement.
    Is the Bureau on schedule to comply with this?
    Ms. Burman. Senator Feinstein, Reclamation plans to 
implement the amendments to the Water Desalination Act of 1996 
contained in Section 4009 of the WIIN Act through a new funding 
opportunity announcement in the spring of 2018.
    This funding opportunity announcement will be used to 
allocate $18 million in funding. That is $6 million from fiscal 
year 2017 and $12 million from fiscal year 2018. This money 
goes towards construction and on the ground opportunities.
    I would also just mention that at our Research and 
Demonstration Program, we have a competitive funding 
opportunity announcement out on the street right now that 
closes May 1. And again, that is for more research and 
demonstration processes. But we will this spring, and we are 
working very hard on it, we will this spring be announcing the 
opportunity.
    Senator Feinstein. Well, thank you, and you anticipated the 
question, which I appreciate too.
    Quickly, you said California needs more storage, and that 
is certainly true. We are waiting and we have waited for 15 
years now for Reclamation to complete the feasibility studies 
on sites Los Vaqueros and Temperance Flat.
    Can you move that along, please?
    Ms. Burman. That seems like a fair request, Senator 
Feinstein.
    We are working very hard to complete feasibility on the 
Temperance Flat study by the end of August. We are working very 
hard to finish sites reservoir feasibility study by the end of 
August, and we are working on Los Vaqueros too. We are 
projecting that that would be in November of 2018.
    Senator Feinstein. Thank you very much. I appreciate your 
knowledge. Thank you.
    Senator Alexander. Thank you, Senator Feinstein.
    Chairman Shelby.
    Senator Shelby. Thank you, Senator Alexander.
    Secretary James, as I said earlier, the deepening and the 
widening of the Port of Mobile is a top priority of mine----
    Mr. James. Yes.
    Senator Shelby [continuing]. As well as most of my 
constituents.
    Given your 30-plus years serving on the Mississippi River 
Commission, I know you understand the importance of our 
Nation's ports as we have discussed here, both inland and 
coastal, and how they contribute to economic growth.
    I am looking forward, hopefully, working with you to 
achieve this goal, and I would like to invite you to meet with 
me at the Port of Mobile. The General is very familiar with all 
of this, but you might be. In the near future, maybe we can 
work this out.
    My question is, it is my understanding that the funds 
Congress appropriated in the most recent supplemental 
legislation have yet to be disbursed to the Corps.
    Is that correct? And if so, has this caused delay in some 
of the issues that you are working on in the Corps?
    Mr. James. Yes, sir, it is.
    We have completed the General Reevaluation Report. The 
Water Resources Development Act of 2014, allows the Secretary 
to proceed directly to the preconstruction engineering design 
upon the approval of the Director's Report and subject to the 
availability of funding. The construction funding would not 
require a new start decision, but would require execution of a 
project partnership agreement once construction is funded.
    As far as where it is in our system, I cannot answer that 
for you, sir, right now.
    Senator Shelby. Would you do it for the record?
    Mr. James. I will take it for the record and get it 
directly to you. I think there are two different ways to do 
that and there is somebody who warned me about that; take it 
for the record or something else, but either way.
    Senator Shelby. Get back in touch with me and the Chairman.
    Mr. James. Thank you very much, sir. I will do that. I 
promise. And I think I do have a trip scheduled to visit with 
the people at the Mobile Harbor right away.
    Senator Shelby. Thank you.
    Mr. James. Thank you.
    Senator Shelby. Thank you.
    General, you are very familiar with the Port of Mobile. We 
have talked about this in several hearings and so forth.
    Where are we there? I know there is a study going on and it 
seems to be promising. I know the Port of Mobile is growing by 
leaps and bounds on container freight and so forth. The 
deepening and the widening would probably move it way on up 
from the 10th busiest port in the U.S. on up.
    Where are we?
    General Semonite. Senator, first of all, I think I have 
hands-on experience doing about 20 different port deepenings. 
We see great merit in the Mobile Harbor, to be able to deepen 
that. You are very familiar.
    We are looking to go 49 feet deep, about another 100 feet 
wide for three miles.
    Right now, the GRR (General Reevaluation Report), Mr. James 
is----
    Senator Shelby. Why 49 instead of 50? Why not go to 50 feet 
and make it even?
    General Semonite. Sir, we will come and lay that out, but 
this is what the study does; is it gives us that 
recommendation. So we will continue to take your advice.
    Right now, I plan on signing that study in November 2019. I 
would like to go to the left and try to get it done faster. As 
soon as that is done, Mr. James has the authority to go ahead 
and start PED. We need money for PED. So although that is going 
to be in the next fiscal year, we would recommend that if, in 
fact----
    Senator Shelby. What if we got it this year?
    General Semonite. If we got it this year, we could put it 
in the 2018 work plan. We do not anticipate that, so right now 
we are assuming that that will be in the 2019 work plan. That 
is still something that would have to be approved, but that 
would allow us to keep momentum right from the GRR right 
through design.
    Senator Shelby. Well, I am going to work with the chairman 
and ranking member regarding that.
    Let us go back into something Senator Feinstein raised and 
Senator Alexander, and that is the Harbor Maintenance Fund. We 
have, what, $9 billion in it right now, very little money in 
the other fund. We have all these needs that deal with the 
economy of this country and our ports.
    It is up to Congress to decide whether to spend that money 
or not. You want to spend or there is a recommendation to spend 
$900 million, I think, is the question Senator Alexander asked. 
And you have, maybe with this year's receipts, $10 billion. 
There are great needs out there.
    What is the problem? This is not borrowed money. Can you 
answer that now or is this something beyond today's hearing?
    Mr. James. Well, I can answer it from my own words, but I 
do not think that is the answer you are looking for.
    The Harbor Maintenance Trust Fund and the Inland Waterway 
Trust Fund are slippery animals, very slippery animals. They 
are not what I thought they were when I took this job. And 
getting the money out of them, if you are a towboat operator 
and you were charged a tax to put money into Inland, then you 
ought to be able to get that tax right straight back out and 
work on a dam, or dredging, or something.
    From my understanding at this point, which is new to me, 
with budgeting, and I apologize, but you are not able just to 
reach in and get that back out. By the way, from what has been 
explained to me, it goes against the $5 billion cap on the 
budget process as well.
    Senator Shelby. Well, I know Senator Alexander has worked 
in this area a long time, but just listening to the 
conversation and the questions. You have this money and you 
have these needs, and it is up to Congress, maybe this 
committee, to appropriate and meet these needs that we have. 
And we have this money there.
    We have to figure out, Mr. Chairman, how to do this and do 
it right, rather than just sit on it and let our infrastructure 
go.
    Senator Alexander. Mr. Chairman, I think every member of 
this committee would look forward to working with you to do 
that on these various projects.
    Senator Shelby. We all have needs from Oregon to Louisiana, 
from New Hampshire to Alaska on here. If we have money that is 
for that, and it is not borrowed money, and we are just sitting 
on it--it might be slippery--but something is wrong, and we 
need to figure it out here in this committee. Maybe we can, Mr. 
Chairman.
    Senator Alexander. We will hope for a generous allocation 
that would give us a lot to work with.
    Senator Shelby. Thank you.
    Senator Alexander. Thank you, Senator Shelby, for being 
here.
    Senator Tester.
    Senator Tester. It makes me wish I had some ports in 
Montana, Mr. Chairman.
    Now, I think maybe the real question is if we cannot get it 
out, where is it going? We ought to fix that.
    These are for you, Ms. Burman.
    First of all, thank you all for being here. I appreciate 
it. I want to talk a little bit about the rural water projects, 
a 71 percent cut down to $33.9 million funding nationwide for 
rural water projects.
    I mean, it is almost so small, it is nonexistent. I do not 
want to put you on the spot, because my guess is you know that. 
These water projects are not free. They cost money. It is like 
any infrastructure.
    The real question here is I happen to have two of them in 
my State, North Central and Dry Prairie. I will tell you that 
20 years ago, they were working on these projects. They were 
$100 million apiece.
    We are not going to get this projects built until after the 
middle of this century at this rate, if at all. Water is life 
and critical for economic development.
    Can you tell me--and I have had this conversation with 
other members in the Administration and the past administration 
too, I will add--that if you do not advocate for adequate 
dollars, how do you expect us to put it in? That is the 
question.
    Ms. Burman. Thank you, Senator. Rural water projects and 
water economy is very important to this Administration.
    When you look at the fiscal year 2019 request for rural 
water projects, they are very difficult numbers. We had very 
difficult budget numbers to meet this year.
    We had to prioritize what is first, what are our existing 
responsibilities. So $20 million is going towards Operation and 
Maintenance of current projects and the remaining funds were 
prioritized for Tribal projects.
    Senator Tester. All right. So let me ask you, and I will 
get to that in a second with Mr. Petty.
    Did you guys send in different numbers and did OMB knock 
them down?
    Ms. Burman. We work with the Department and the 
Administration on all of our budget numbers, sir.
    Senator Tester. Okay. You do not have to really answer 
that.
    Did you put in a different set of numbers and have OMB 
knock it down? It is okay if it did. I am not going to hold it 
against you or Director Mulvaney.
    Ms. Burman. We work with the Department and the 
Administration. The Administration submits our requests and 
that is our process.
    Senator Tester. You are a good soldier.
    So we have St. Mary Diversion Dam, a lot of economic 
activity, drinking water for 18,000. It irrigates 120,000. I 
can give you statistics on the Milk River.
    We are requesting $1.9 million for this project. The design 
work itself is going to be $2.5 million.
    How do we even complete the design work to get it going? 
And we need to get going on this. I do not know if you have 
ever been there. Have you ever been out there?
    Ms. Burman. Not yet.
    Senator Tester. You are invited.
    Ms. Burman. Thank you.
    Senator Tester. It is an engineer piece of genius work and 
it is over 100 years old. It has been worn out for 20 years, at 
least. It is going to blow up. I am not talking about blow up, 
but it is not going to service here pretty quick.
    So the question is, once again, this is a line item that is 
just absolutely underfunded, unequivocally. It is the same kind 
of question. What are we supposed to do about that? Is it the 
goal here just we are going to bump it up or you just expect 
Congress to do that, right?
    Ms. Burman. The St. Mary Diversion Dam faces a number of 
issues. It is, as you said, it is a very old. It has reached 
the end of its useful life. We are trying to work very hard 
with the delegation, with the locals to also find ways for it 
to be an affordable project for the folks who get water from 
that place.
    Senator Tester. Yes, you are exactly right. The irrigators 
downstream, it has to be affordable, otherwise it does not do 
any good. Then the Milk flows up into Canada. There is an issue 
there. So it brings in the State Department. It is complicated, 
but just to start off the design work, we just have to have 
more than that.
    Mr. Petty, I will say that in your presentation, and I was 
not going to ask this question, but I have to now. You said you 
have $127.4 million for Indian Water Settlements.
    Dr. Petty. That is right.
    Senator Tester. That sounds like a great sum of money. 
Blackfeet alone is $400 million. You have Salish and Kootenai 
right in front of you now and they are negotiating off of $1 
billion. That is just two tribes in Montana.
    So the question is that even though $127.4 million looks 
good, it really is a drop in the bucket.
    Dr. Petty. Yes, Senator. I could not agree with you more. 
The complexity is this is how much we have. This is what we are 
working with, but there are significant Tribes working many 
years, actually, in Senator Risch's office as well with the 
Tribes there.
    Senator Tester. Yes.
    Dr. Petty. So I look forward to actually working with you 
and try to answer those questions.
    Senator Tester. Yes, we will work. This is important stuff 
and I did not even get to the mussels.
    I will end where I started and that is if we do not put 
some sort of focus on infrastructure in this country in water 
infrastructure, along with other infrastructure, we are not 
going to continue to be the leader of the free world.
    Dr. Petty. I could not agree with you more, Senator.
    Senator Alexander. Thank you, Senator Tester.
    Senator Kennedy.
    Senator Kennedy. Thank you, Mr. Chairman.
    General, we have talked about this. Mr. Secretary, I want 
to make sure you are aware of it.
    Since we have been meeting since 3:30, we have lost a 
football field and a quarter of land in Louisiana. We levied 
the Mississippi River so it cannot overflow and deposit 
sediment. I am not saying we should not have levied it, but we 
did and that was one of the consequences.
    The sediment that is there is sinking. It is compacting and 
you can debate the cause, but you cannot debate the fact that 
the water is rising.
    Now, we are spending a lot of our own money to try to do 
something about it. But the Federal permit process is killing 
me. I am not asking you to break any rules. I would not do 
that.
    But on occasion, not every week maybe not every month, I 
might call you and say, ``I need a little help navigating the 
Federal bureaucracy.''
    Would you help us through that?
    General Semonite. I would definitely help you, sir.
    Senator Kennedy. And you have been a big help, General.
    Number two, I know, Mr. Secretary, you are familiar with 
the Freshwater Bayou Lock. It is one of the top 10 in the 
country in terms of commercial lockage. I forget which of my 
colleagues asked you about how we are going to properly fund 
our locks, but how are we going to properly fund our locks, 
specifically, the Freshwater Bayou Lock?
    Mr. James. That is probably the best question we will get 
today.
    Senator Kennedy. Yes, sir.
    Mr. James. The toughest question we will get today is how 
are we going to fund anything? As the lady said, we produce a 
proposed budget, and it goes through the Administration, and 
then the Congress gets it, and then you all have to react 
however you can.
    I am very concerned about our ability to repair and replace 
most things in this country that has to do with infrastructure, 
and particularly water infrastructure.
    Senator Kennedy. I know you are, Mr. Secretary.
    Mr. James. I realize the problems that Louisiana has down 
there. All of us have some erosion problems and some bank 
caving along rivers and what have you. But I am very familiar 
with the coastal erosion and the sea level rise in Louisiana.
    Senator Kennedy. Can I mention one other thing to you? 
Forgive me for being abrupt, but I only have 5 minutes.
    Mr. James. Yes, sir.
    Senator Kennedy. And I like to try to stay within my time.
    Dredging is hugely important in my State. We have to find 
the money for it. I mean, for the Mississippi River up to Baton 
Rouge, the Red River, the Houma Navigation, Calcasieu River, 
Bayou Collette. I am leaving some out. We cannot maintain 
maritime commerce if you cannot get the boats in.
    Mr. James. I understand and you are also talking about 
Morgan City.
    Senator Kennedy. Morgan City, absolutely, thank you. You 
bailed me out.
    Mr. James. Head of Passes.
    Senator Kennedy. Yes.
    Mr. James. I understand because you are at the very end of 
a system that drains 41 percent of the United States. Where the 
waters hit the oceans and the larger bodies of water, they slow 
down and the sediment and all settles out.
    As far as we have to get the money, I agree with you 100 
percent. It is a matter of priorities.
    Senator Kennedy. Okay. I want to talk to you about that, if 
I could. Excuse me for interrupting.
    Mr. James. Yes, sir. I would be happy to talk to you about 
it, but it is something that is hard to talk about.
    Senator Kennedy. Let me talk to you about one other project 
in the minute I have left, and I know you are aware of it, the 
Comite River to the Mississippi River Diversion Canal.
    Here is the Mississippi River. Nobody lives along the 
Mississippi River. Here is the Comite River. A lot of people 
live along the Comite River. Mississippi River has levees; 
Comite River does not. It floods and it floods houses and 
businesses. So we want to dig a canal from the Comite River to 
the Mississippi River and take some of the pressure off.
    Twenty-five years ago, the people of Louisiana taxed 
themselves and they have been paying money, except they have no 
canal.
    Now, you have some extra money now to do that, and I hope 
you will consider doing it.
    Final point, I got 13 seconds. Can you tell me, like you 
are talking to a 10th grader, in about 30 seconds, why you 
cannot get that $9 billion out of the Harbor Maintenance Fund?
    Mr. James. No, I cannot tell you.
    Senator Kennedy. All right. Would you write me a letter, 
and explain that to me, and tell me what Congress needs to do 
to give you the authority to make that Fund a little less 
slippery so you can go in there and get it?
    Mr. James. I could do that, but I would rather come, sit 
down, and visit with you on it.
    Senator Kennedy. I will come see you.
    Mr. James. I have already said it and the other one both 
are slippery. They are not what they look like.
    Senator Kennedy. Well, I am going to come see you. Thank 
you.
    Thank you, Mr. Chairman.
    Senator Alexander. The reason he would rather do this is 
because the letter would have to go through the Office of 
Management and Budget.
    [Laughter.]
    Senator Kennedy. We like to talk. We do not like to put 
things in writing.
    Senator Alexander. That is it, Senator Kennedy. Thank you.
    Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman.
    I would like to sit down with you, too, because the last 
letter I sent to you, Secretary James, also went to the Office 
of Management and Budget, and I still do not have a response to 
that letter.
    But it was about the challenge that we have in New 
Hampshire. We do not have as much coastline as the State of 
Louisiana. We have the shortest coastline in the country, 18 
miles, but we have some very important harbors there.
    One of those is the Hampton Seabrook Harbor. It is our 
State's largest commercial fishing port, and it has experienced 
dramatic, and I mean dramatic, and unexpected shoaling since it 
was last dredged in 2013. General Semonite knows what I am 
talking about because the Army Corps released a shoaling report 
recently that confirmed that some areas of the harbor are less 
than 1 foot deep.
    Mr. Chairman, I would like to submit this report for the 
record, if I could.
    [The information follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Senator Shaheen. You cannot really see the depths here, but 
the red shows the places where we have serious trouble where it 
is below the ability to bring boats in and out.
    There is a probability that if we do nothing, this Harbor 
is going to become unusable in the very near future, maybe even 
in the next year.
    My question is not just about that $9 billion for the 
maintenance fund, but it is also what can be done to address 
the small harbors, like we have in New Hampshire, that we have 
across this country that do not rank as high on the priority 
list as some of the bigger harbors, but are absolutely 
essential to the economies of our State?
    How can we address those and what can we do in Congress to 
make sure that we are able to address those needs that we have? 
Clearly, just the funding is not enough if you have $9 billion 
that you are still sitting on that we have not put out yet.
    Mr. James. That is correct, ma'am. I have to meet the 
benefit-cost ratio and low use harbors usually do not meet 
that. Also, if they are for transport of goods, they have to 
meet a tonnage minimum in order to be dredged and so forth.
    What we do have right now available to us is the Low Use 
Subsistence Harbors Fund. I think this might be able to get 
funded through that mechanism. But other than that, it is tough 
to reach into the budget to get the funding because of the 
requirements in the budget. It could also be funded maybe 
through the work plan. It may be worth looking at even in the 
supplemental.
    Senator Shaheen. General Semonite, do you have anything to 
add to that?
    General Semonite. Senator, the Secretary is right.
    I am very, very aware that you have some significant 
challenges. You had storms, even since November 2017.
    Senator Shaheen. Right.
    General Semonite. So you have a $4 million problem right 
now in dredging it, a $3.5 million problem on the jetty that 
needs to be fixed. Those have to be addressed.
    Now, we have to design that. The only way to design it, we 
have to do it this year. So we think that there is a potential 
to nominate to the Secretary, design money in 2018, probably 
$275,000. Get the design done and then we would have to come 
back in to see if we could secure work plan funding, if nothing 
else, in 2019. You did not get any money for this in 2019.
    Senator Shaheen. Right.
    General Semonite. So it would have to be built-in to the 
2019 work plan. But that could be an option of how we can take 
care of this critical issue.
    Senator Shaheen. Well, I appreciate that. I hope that you 
would be willing to work with me. Secretary James, I hope you 
would also consider working with me on this. We do not need all 
that extra plus-up for Senator Alexander's locks. We need to 
look at some of the other places in the country where there are 
problems. I am sure he would agree with that.
    Mr. James. Ma'am, I will be most happy to work with you or 
your staff can call us for more information, or more input, or 
direction. Be happy to. Just let us know.
    Senator Shaheen. Thank you. Another project that is also 
critical, again, as General Semonite knows, is the Portsmouth 
Harbor and Piscataqua River Navigation Project.
    We have one of the fastest currents in the world in the 
Piscataqua River, and the navigability of that channel is 
challenging even under the best of circumstances. So when there 
are issues around the widening of the turning basin, then it 
means safety issues with respect to the boats coming in and 
out, especially as we are looking at longer sized, larger and 
longer boats coming in.
    So again, I hope you will also be willing to work with us 
on that Port as well.
    Mr. James. Yes, ma'am, of course.
    Senator Shaheen. Thank you. Thank you both.
    Senator Alexander. Thank you, Senator Shaheen.
    Senator Lankford.
    Senator Lankford. Thank you, Mr. Chairman.
    Mr. Chairman, can I recommend to the committee that we have 
a closed door meeting with the Corps of Engineers and with OMB 
together? That we have a conversation about priorities, and the 
inland waterways, and the Harbor Maintenance Fund, and try to 
figure out how to un-slippery this slippery issue?
    Senator Alexander. We will take that under advisement. 
Thank you, Senator.
    Senator Lankford. Thank you, Mr. Chairman.
    General, let me read a piece of legislation to you. This 
piece of legislation starts with this. Section 6002 from WRRDA 
(Water Resources Research Act), ``(A), Assessment and 
Inventory. Not later than 1 year after the date of enactment of 
this Act, the Secretary shall conduct an assessment of all 
properties under the control of the Corps of Engineers and 
develop an inventory of the properties that are not needed for 
the mission of the Corps of Engineers.'' Then it has a lot 
after that.
    Do you want to take a guess on what year that passed?
    General Semonite. I believe that is 2016.
    Senator Lankford. 2014, actually. The deadline to receive 
that was 2015 and my clock says it is past that. That we still 
have not received that.
    We are trying to be able to work through helping the Corps 
by figuring out the inventory of what you have, where are the 
priorities, where is the inventory that is not a priority, and 
allow this committee the ability to be able to look over your 
shoulder and to say, ``Prioritize this. Do not prioritize or 
sell that.''
    But we cannot get through Step 1 because what we asked for 
in 2014, we still have not received.
    Help me understand when we are going to get this so we can 
help you, because all we seem to talk about is how do we get 
things done? And it is always, ``We have this big list,'' but 
we have no ability to help you with that.
    General Semonite. Senator, there are probably 50 or 60 
different reports that we have been asked to do. They fall into 
two different categories.
    One is they come in, but they do not come with any funding. 
And unfortunately, that means that some of those, as much as we 
know it is a requirement, we just do not have the capability to 
put money against it because there is nothing there.
    The other one, some of these de-authorizations is another 
great example. I have the report done, but sometimes it takes a 
while to be able to get from us through channels back to you.
    So this is why we want to work with you to figure out how 
can we make sure that we can expedite some of these reports, 
and if they can bypass some checks, then maybe that way, we can 
inform you a little bit easier.
    Senator Lankford. Yes. I mean, this is one designed to help 
you.
    General Semonite. Of course, yes, sir.
    Senator Lankford. This is not one designed to hurt you.
    General Semonite. You are exactly right.
    Senator Lankford. I am trying to find some help, and we 
cannot seem to get through to that. Okay.
    We will try to follow up on that. I will have a chance to 
have a meeting to be able to chat about that, and how we can 
move on that, and to be able to get that done.
    Let me go through a couple of other things here. In Tulsa, 
Oklahoma there is a levee system that has been on the top of 
lists of projects for the Corps for multiple years.
    Do you know where that stands on the list right now?
    General Semonite. Sir, we see this as a significant 
challenge to the people there. This is an LSAC--a rating we 
use--it is one of the worse levees, LSAC 1 and LSAC 2.
    This is one that could certainly compete in the work plan, 
but as most of you know, Congress did a great job of passing 
the Disaster Supplemental. That Disaster Supplemental, about 3 
weeks ago, provided to the Corps of Engineers $17.4 billion 
with very specific guidelines of where we can use that.
    We think that the potential for Tulsa levee could come 
underneath the Disaster Supplemental. So while we could take it 
out of the Civil Works budget, we are also looking right now at 
options with the Secretary.
    I have to give him two products. I have to give him the 
work plan and the Disaster Supplemental. We think there is 
merit either in the work plan or the supplemental for Tulsa 
levee to be taken care of. But this is critical.
    Senator Lankford. Yes, it is critical.
    Secretary James, let me just tell you, if you come to 
Tulsa, Oklahoma and see the levee, and the issues that are 
there, the homes that are on the other side of it, the refinery 
that is on the other side of it, you will understand exactly 
what the risk is, and what we are facing.
    And if we take you through there, I would like to be able 
to show you how the system is set up to be able to operate. 
Because if you go in there, to be able to go into one of the 
houses that houses the mechanisms and everything for the levee, 
you will find if you go to the bottom of that, a 50-year-old 
whiskey bottle that is the float for the system.
    Now, the whiskey bottle has worked. I get it. But I think 
there is a better way to probably accomplish that. We could 
multiply that all the way down that levee with the dangers and 
the risks that are really there.
    That is a big issue, of course. Obviously, the MKARNS is 
another one. The MKARNS is listed as a high use now waterway 
system, inland waterway system. It has $138 million of backlog 
on it.
    It has been rated now with a report that if any part of 
that fails--which, as you know, it has a critical failure rate 
all the way throughout the whole system--any part of it fails, 
it has a $2.9 million impact per day.
    Help me to understand structurally how we plan this as far 
as to get ahead and how we chip away at that. This is something 
I have discussed with the Corps for multiple years trying to 
figure out, how do we even start on this process? We seem to be 
maintaining, but not getting into the big parts or the critical 
parts of the project.
    General or Secretary, either one, I would love to be able 
to get an answer.
    Mr. James. Well, I have traveled on the MKARNS up to the 
Port of Catoosa, a few years ago, with the Mississippi River 
Commission. It is an awesome waterway. I have not seen a busier 
inland port yet anywhere in this country.
    The waterway, is it authorized? It is 12 foot?
    Senator Lankford. It is. Currently, we are obviously 
interested in dredging it much deeper than that, but it is, I 
believe, authorized to 12 feet.
    Mr. James. Yes, that is what I thought. I know when I was 
there on the trip, they were talking about needing dredging----
    Senator Lankford. Right.
    Mr. James [continuing]. So they could handle the bigger 
ships there too.
    Senator Lankford. We just need to make sure all the locks 
and everything work first. We would love to have the dredging 
on it. But just making sure it gets off the critical list would 
be essential to us because there are so many critical items all 
the way down. If any one of them fails, then the whole system 
breaks down.
    Mr. James. Thank you.
    Senator Lankford. Thank you, Mr. Chairman.
    Senator Alexander. Thank you, Senator Lankford.
    I am going to go to the floor to make some remarks about 
Barbara Bush, and Senator Hoeven has agreed to preside for the 
remainder of the hearing.
    I want to thank the witnesses for being here and for your 
testimony.
    Senator Merkley.
    Senator Merkley. Thank you, Mr. Chairman.
    If I can complete these questions, can I yield the balance 
of my time to Senator Udall, who also has the AUMF 
(Authorization for Use of Military Force) meeting in Foreign 
Relations?
    Senator Alexander. Is that all right with you, Senator 
Murkowski?
    Well, yes. The answer is yes. You can, the rest of your 
time, you certainly can.
    Senator Merkley. Thank you. Someone asked for very quick 
responses than the full exploration here, so this is kind of 
the speed route from the beginning.
    With the additional $50 million that Congress provided in 
the omnibus for navigation operations and maintenance, we need 
help making sure the small parts on the Oregon coast get the 
dredging they need.
    Mr. James, can you work with us to make that happen?
    Mr. James. Sir, I will work with you. We will try to make 
that happen. I will promise you that.
    Senator Merkley. I know that you have done a very good job 
in the past. It has meant everything to those coastal ports.
    Second, also a question for you. We have worked with our 
colleagues in the Northwest delegation, including Senator 
Murray, to include language in the omnibus to enable the Corps 
to finish the Village Development Plan at the Dells Dam Site. 
This is the re-building of the fishing communities, tribal 
fishing communities that we promised when we built those dams 
in the 1930's and the 1950's.
    We have run into an issue of will, not of authorization, 
but of will because we used the language that your team had 
given to us.
    Will you work with us to try to, one, make the existing 
language work by persuading OMB that this is an important 
commitment that we have made to these villages, to these 
tribes? And also, help us work to get even better language to 
make it even clearer to get this longstanding commitment 
fulfilled that we are now some 70 to 90 years behind on?
    Mr. James. Yes, sir. I have personal feelings about that 
situation as well and would work with you any way I can.
    Senator Merkley. Thank you.
    Commissioner Burman, we have worked very hard to get the 
water conservation delivery line plus-up in the omnibus 
successfully. It has the authorization. It has the funding, but 
we need to make sure that that plus-up money gets to the 
Klamath Basin very quickly for land idling and for pumping for 
this summer.
    And as well, to try to get a share of the $3 million that 
is in a separate account to help with the fish on the Lake 
where we have, on the suckers, no fish that are younger than 20 
years. So we are really on the brink of a major catastrophic 
development there.
    Can you work with us to try make both those things happen?
    Ms. Burman. Senator, we are looking at all of our 
authorities and spending opportunities to help prevent crisis 
in Klamath this year.
    Senator Merkley. I know you are looking at it, and I thank 
you for doing so. We appreciate it, and Congressman Walden 
appreciates it, Senator Wyden appreciates it. We all appreciate 
the fact that you are working with us on that.
    I yield to my colleague.
    Senator Hoeven [presiding]. Senator Udall.
    Senator Udall. Thank you, Mr. Chairman.
    In New Mexico, there are critical programs for which we 
must always seek funds through the Department's work plan 
because they are generally not in the President's budget, even 
though the programs and projects are authorized.
    Fiscal year 2018 is no exception. The Rio Grande 
Environmental Management Program, Acequias Irrigation System, 
flood control for the city of Alamogordo, and reimbursements to 
communities under the 593 program, all need funding from the 
Army Corps of Engineers.
    Mr. James, when you and I spoke during your confirmation, 
you committed to working with me to make sure priority projects 
for New Mexico, that were not included in the President's 
budget, would be addressed in the work plan.
    Can you reaffirm that commitment today?
    Mr. James. Sir, I reaffirm the commitment that I will work 
with you to get them into the work plan.
    Senator Udall. Okay.
    Mr. James. I cannot make a guarantee, of course, to put 
them in there.
    Senator Udall. Thank you, thank you.
    Mr. James. Yes, sir.
    Senator Udall. Commissioner Burman and Dr. Petty, will you 
commit to prioritize funding for longstanding priority projects 
in New Mexico, such as the Eastern New Mexico Rural Water 
System and the Anacostia Dam Fish Passage?
    Ms. Burman. Senator, the rural water program this year, we 
had very difficult numbers to reach and we have prioritized 
operation and maintenance of existing projects, and the tribal 
units or tribal projects.
    And so we were unable to request money for your project, 
but we are certainly trying to work with stakeholders to see 
what is possible there.
    Senator Udall. Great. And you understand this Eastern New 
Mexico Rural Water System has a national security connection. 
We are talking about water for Cannon Air Force Base.
    I believe there is language in the fiscal year 2018 
appropriation bill that talks about when you all look at these 
kinds of decisions, consulting DOD (Department of Defense) and 
making sure--Mr. Petty is nodding his head here, so I guess I 
am accurate--but making sure that you look at national security 
as a part of the water projects.
    Thank you very much and really appreciate it. I have other 
questions for the record and just wanted to get that statement 
in, and hope you will give us timely and thorough answers to 
those additional questions.
    Senator Hoeven. Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman.
    Thank you all for being here. First, let me begin with you, 
General, and this is quickly relating to the issue of the 
proposed Pebble Mine. I appreciate the communications that your 
Office has had with mine.
    As you know, we had requested an extension of the scoping 
period that was agreed to. I think that that was important 
given the project that we now have in front of us, and the fact 
that, for many, it is a very different project than what they 
might have imagined it would be.
    I had an opportunity, just yesterday, though, to meet with 
a good handful of folks from the Bristol Bay region. They 
shared with me some concerns with where we are in process right 
now.
    I feel it is appropriate to share with you that they 
expressed that there were issues with regard to how the 
hearings were being noticed, a lack of flexibility with the 
schedule, and that further police protection had been asked for 
by those who were coming with the Corps. I cannot imagine if 
sometimes we get a little raucous in our public comment, but 
never to the point where anyone should feel that they are 
threatened.
    So I raise that with you. I know we are going to have an 
ongoing discussion about it, but it is important. I think we 
recognize that on the process side that nobody would be able to 
really know what has gone on. You are concurring with me with 
your body language there.
    General Semonite. Senator, I just will be real fast.
    So we definitely went to the 90-day. We have done nine 
different sessions, which is more than we normally do, but we 
want to be very, very open.
    We have also continued to be able to have a lot of 
different forums. We have had now 25 different iterations as to 
where the Tribes are coming back in to be able to do outreach.
    I had not heard about the police issue, but I will follow 
back up with the Colonel up there. Normally, we get great 
support from local police if, in fact, we need to.
    We want everyone to be able to come together, and in this 
particular hearing, this actual permit has been on the Web for 
175 days. So this hearing is not necessarily a public hearing. 
This is where we want to be able to get awareness of what is 
out there, then we will come back through that process, and 
have another whole series of hearings.
    We want to be very deliberate on that process, exactly what 
you said. And we want to be responsive. If there are other 
things you want us to do, let us know.
    Senator Murkowski. Well, good. I think the more transparent 
you can be and then give that heads up, I think it is 
appreciated all around.
    This is a question for you, Secretary James. It is going to 
go broader than my example here. We have a community, 
Utqiagvik, formerly known as Barrow, top of the country up 
there in the north. It has been facing some very severe winter 
storms.
    With the sea ice being further out, you have greater 
coastal erosion that we are seeing. We have a utility corridor 
that is in danger of washing away due to the beach erosion.
    We also have an old landfill that is now about 100 feet 
away from the water. This landfill is maxed out, but you also 
have some old military waste in there from cleanup projects 
that have gone on; tens of thousands of drums of waste. This is 
a slow moving disaster is the way that I have described some of 
the erosion threat that we are seeing.
    So here you have the most significant community in the 
North Slope there and the potential to lose the utilities, but 
also from an environmental perspective, a real threat.
    The question they have asked me to ask you is: how quickly 
are we moving in providing any level of assistance? Not only to 
protect the utility corridor, but to deal with the potential 
for this environmental issue?
    It is bigger, though, than Utqiagvik. It is bigger than 
Kivalina, and Shishmaref, and Unalakleet. This is the issue we 
are facing of coastal erosion. The reality is that these are 
high cost when you look at it from a cost-benefit ratio, and 
this is where we always fall off the radar, because our cost-
benefit ratio never pencils out.
    This is where the small and subsistence harbors came into 
being because otherwise places like Alaska would never be 
heard.
    Well, we are now in that same situation. I do not know, but 
I would hope that you are looking at this whole benefit-cost 
ratio score reform; when we talk about pre-disaster mitigation, 
being able to look at things like what coastal erosion, the 
potential for erosion and the damage coming, the seismic 
issues.
    So I am not giving you a chance to answer my question here, 
and my time is just about up. But I need to know that we are 
having a bigger, broader discussion internally with all those 
that are in the right places to help with these policy 
directives, that we have a plan going forward.
    I have people that are going to bed at night afraid. They 
are afraid of the next storm coming their way. They are afraid 
they are going to lose their utilities. They are afraid they 
are going to have an environmental disaster. They are afraid 
that their home is going to drop into the ocean like the people 
in Newtok are facing.
    They keep coming to me and saying, ``Lisa, you have to have 
an answer here.'' We have put the Denali Commission in front as 
the lead coordinating agency on village relocation. The Denali 
Commission was lucky because we got $15 million to them this 
year; $15 million.
    I am not giving you a chance to answer my question, but I 
hope you know it is not just a question. It is a plea. It is an 
urgency. It is a demand. We must be working together more 
aggressively because peoples' lives are in danger and the 
potential for an environmental disaster is very real.
    Mr. James. Thank you, ma'am. They would a lot rather listen 
to you than me anyway, so do not worry about that.
    I have your questions. I have got them. We will get back 
with you with some more specific answers just as soon as 
possible, but I understand what you are saying. I have lived 
part of that myself.
    Senator Murkowski. I would love to sit down with you. We 
have shared a lot of time with the General in my office. We 
will be doing more sharing.
    Mr. James. Okay.
    Senator Murkowski. Thank you, Mr. Chairman.
    Mr. James. Thank you.
    Senator Hoeven. Senator Graham.
    Senator Graham. I actually do have a question. I am going 
to let you answer it, but you need to help her because that 
sounded terrible.
    Senator Murkowski. Thank you.
    Senator Graham. You need to help these people.
    Number one, do you all agree that this budget is much 
better in terms of your ability to help the country, the budget 
increases? You got more money. Are you glad about it?
    Mr. James. You mean the appropriations from the Congress?
    Senator Graham. Yes. Is it helpful?
    Mr. James. Yes, sir. Absolutely.
    Senator Graham. That was not a trick question.
    So the reason it is helpful is you have a lot of tasks out 
there and a lot of stuff has been deferred because 
sequestration has been hard on the Army Corps and everybody. Is 
that fair to say?
    Mr. James. Yes, sir.
    Senator Graham. General, do you agree with that?
    General Semonite. Yes, sir.
    Senator Graham. So I just think not only did we need to 
spend more on our military, I think what the Corps of Engineers 
and what you do on Civil Works is important to our 
infrastructure.
    So to those who are upset about the budget, we did spend 
more than last year. But we are spending $2 billion less in 
2018 on nondefense, discretionary spending than we did in 2010. 
I imagine it has a toll on you all.
    General Semonite, you have been to Charleston many times, 
and I cannot thank you enough for your visits. So there are 
seven or eight States, I think North Dakota may be one, where 
the State puts up money for Federal projects. And under the 
current formula, when you look at the benefit to the Federal 
Government, really, it is not included.
    We are going to try to change that in the WRRDA bill. Are 
you familiar with that, General Semonite?
    General Semonite. Yes, sir.
    Senator Graham. So I just want to let you know that when 
South Carolina put up $300 million to make sure that the 
State's matching part for the Port of Charleston would be there 
available that was during really difficult economic times for 
the State. I want to compliment my State for putting $300 
million aside at a time when they could have used the money for 
something else.
    So I just urge you to understand that all these States who 
go ahead and forward the funds, that I want to make sure that 
they are rewarded, not punished. And when it comes to the Port 
of Charleston, you have been generous; $17.5 million, I think, 
last year.
    We are moving now into the construction phase pretty 
aggressively and we made a request of $90 million. The State 
has got their part of the money. I would just urge you to help 
us as much as you can. We are going to change this formula 
later, but time is money and it would be a shame to have this 
project fall behind.
    Would you do your best, General?
    General Semonite. Sir, as I said earlier in this hearing 
and a lot of other hearings, I see unbelievable value in harbor 
deepening when it comes to jobs, and the economy, and we would 
continue to support those projects.
    Senator Graham. Okay. And what I want to do with Senator 
Hoeven, and others, is to make sure that when a State forwards 
funds, puts their money up, that the Federal Government sees 
that as a benefit because you have a partner with the money on 
the table and in these projects, time is money. So you do not 
have to wait for the money to come down the road. You can get 
ahead.
    So anything you can do to make sure that the Federal 
Government's allocation allows those projects to stay on track 
and meet the State's forward funding, we would appreciate.
    In terms of the Corps and Civil Works, how much has this 
additional funding changed what you can do? I want the American 
people to understand, at least from your point of view, what 
this additional money will allow us to do in terms of making 
the country a more efficient place to do business.
    Mr. James.
    Mr. James. Well, one thing it has done is allowed us to get 
to projects that would not have been gotten to otherwise in the 
budget, not only from a money standpoint, but from other 
standpoints as well when it comes through the Congress.
    Senator Graham. What about you, General Semonite?
    General Semonite. Sir, not only is it a very generous plus-
up, but on the other hand, it goes with what the Secretary 
said. It allows us to apply some common sense to where the best 
value needs to go to the Nation. It is all for the taxpayers 
and for life safety.
    When we get that money and we can put it in a work plan 
based on engineering and science, you cannot argue that.
    Senator Graham. So you get away from having to rob Peter to 
pay Paul and do duct tape. Now you make some really smart 
decisions going forward?
    General Semonite. Yes, sir.
    Senator Graham. Is that true for the rest of you, Ms. 
Burman?
    Ms. Burman. Absolutely, Senator.
    Dr. Petty. Yes, Senator. It sure does.
    Senator Graham. Thank you. And to the taxpayer, we are 
trying our best to be fiscally responsible.
    Twenty-eight percent of Federal spending is outside the 
mandatory realm. Half of that is defense, the other half is 
nondefense. You are in the nondefense category, but I would 
argue this plus-up is going to make American infrastructure 
more vital, make our ports deeper, and make the waterways safe 
to navigate. That is just one example.
    So thank you all very much for what you do for the country.
    Thank you, Mr. Chairman.
    Senator Hoeven. Thanks, Senator.
    We have talked about the backlog of projects. The best way 
we can cut through that is with these P3 projects, and so the 
scoring that Senator Graham is talking about in terms of OMB 
adjusting their scoring to reflect the contribution of the 
State and local entities will be a big benefit to you.
    Would you not agree with that, Mr. Secretary, and also 
General Semonite?
    Mr. James. I would, sir. Yes.
    General Semonite. And Senator, you and I have talked, I 
think, eight times to date on exactly this scenario. You were 
not here right on my opening comments, but we have proposed a 
lot of innovative legislation changes, and we are working with 
staff now and the Secretary, to be able to offer up some good 
solutions where we can solve some of this.
    Senator Hoeven. Yes, we need to do that on the scoring. 
That will absolutely bring resources to you, help get projects 
done. It is fiscally responsible for the Federal Government and 
gets results in terms of building vital infrastructure. So we 
do need to get that done legislatively.
    Also, I have a bill in with Senator Cory Booker, so it is a 
bipartisan bill on WIFIA (Water Infrastructure Finance and 
Innovation Act), so that you can use the EPA's (Environmental 
Protection Agency) authority to bond projects.
    Again, General Semonite, to both you and Secretary James, I 
would ask if you are supportive of that legislation.
    Mr. James. Absolutely, sir.
    General Semonite. Definitely, sir.
    Senator Hoeven. Thank you. I want to commend you for moving 
authority for Section 408 request to the district level. Thank 
you for doing that. That is the kind of thing, again, that is 
about getting work done and I really appreciate that attitude. 
So I want to commend both of you on that and thank you.
    General Semonite, I would ask you first in regard to Minot, 
we are trying to get the feasibility study done so that we can 
get to the Chief's Report. We would like to get in the WRDA 
bill and so right now, that is not scheduled to be done until 
2019.
    I would like to ask for anything you could do to help 
expedite that so that we can have a Chief's Report pre-WRDA.
    General Semonite. And sir, we are very, very conscious of 
the WRDA cutoff. We are trying hard to really, wherever we can, 
to continue to keep due diligence, but eliminate unnecessary 
steps to try to push this stuff back to the left. I will 
continue to look at that one specifically.
    Senator Hoeven. Yes. That is one where I think we can get 
there, again, if you will just work with us to help expedite. I 
think a lot of that work has been done, and so we would 
appreciate your help there.
    Also, in regard to the Red River Valley, I think you are 
aware that the States of North Dakota and Minnesota now are 
working together. The Governors' Offices are working together 
to make sure that they resolve any concerns regarding getting a 
permit from the Department of Natural Resources from the State 
of Minnesota.
    And so, again, I would just ask what can you do to help 
both move that forward? But then, also make sure that we are 
funding into the project as soon as we have that agreement. We 
will have that agreement approved here this year, including the 
court reviewing and approving the agreement.
    General Semonite. So Senator, again, we have talked about 
this. We are getting ready to propose to the Secretary the work 
plan.
    Right now, what we would anticipate is that if, in fact, 
that permit gets approved by the State of Minnesota, and that 
injunction and the litigation goes away, then we would continue 
to be able to move forward. There could be some potential in 
the work plan to be able to do some of that.
    The main thing is if it does not somehow let the litigation 
go away, there are two parts right now that could be done on 
Fargo-Moorhead that would continue to be able to honor the 
judge's decision. And that is probably about $25 million of 
continuing work to be able to support the diversion inlet and 
another $10 million on other types of things.
    There have been some changes in the plan. That $10 million 
would allow us to continue to move forward.
    So just because the litigation does not go away does not 
mean we have to come to a screeching halt. If you need to, we 
come to see your staff and walk you through that. That is all 
dependent on Secretary approving the work plan once we submit 
it to him.
    Senator Hoeven. Are you working on the work plan now?
    General Semonite. We are, definitely, right in the middle 
of it.
    Senator Hoeven. Okay, so that is something we should be 
talking to you about.
    General Semonite. Sir, we are tracking every one of these 
requirements from all of Congress.
    Senator Hoeven. Okay. So General Semonite, I want to thank 
you for your help and your very sincere, and I think, creative 
efforts to get things done, not just talk about these projects, 
but get them done. I truly appreciate that.
    And Secretary James I appreciate, you and I have a little 
background together bringing that same attitude. These are the 
kinds of creative ideas we are going to have to undertake if we 
are really going to get after that backlog and get these 
projects done.
    Mr. Secretary, I do not know if you had anything else that 
you wanted to offer in that regard.
    Mr. James. No, sir. I do not. I just wanted to thank you 
for your questions today and good to see you again.
    Senator Hoeven. Well, we appreciate you very much.
    Commissioner, we have three projects we are working on with 
the Bureau of Reclamation. One is regarding Lake Patterson. One 
is regarding the Jamestown Reservoir. And the other is in 
regard to moving irrigation from the Missouri River. All three, 
the Bureau, I think, is onboard with us.
    I just want to check in with you to see if you had any 
comment on any of those three. We have talked with your people. 
They have been responsive and helpful. I just want to verify 
that everything is tracking and that you are onboard with us on 
those projects.
    Ms. Burman. Senator, we are working with all of the 
stakeholders to move forward with those projects.
    Senator Hoeven. Yes, we appreciate your help as well.
    Is there anything else that you would like to offer for 
this hearing before we adjourn?
    All right. If not, the hearing record will remain open for 
10 days. Senators may submit additional information or 
questions for the record within that timeframe, 10 days.
    Then the subcommittee requests that all responses to 
questions for the record, if you would, try to have the 
response in within 30 days, if could.

                           SUBCOMMITEE RECESS

    Senator Hoeven. And so with that, there are no further 
questions.
    Again, thank you for being here, and we appreciate your 
good work on these important issues.
    [Whereupon, at 4:29 p.m., Wednesday, April 18, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]

                            [all]
</pre></body></html>
